App. 1
928 F.3d 877
United States Court of Appeals, Tenth Circuit.
KANE COUNTY, UTAH, Plaintiff-Appellee,
and
The State of Utah, Intervenor Plaintiff-Appellee,
v.
UNITED STATES of America, Defendant-Appellee.
Southern Utah Wilderness Alliance;
The Wilderness Society, Movants-Appellants.
No. 18-4122.
|
FILED June 25, 2019
Appeal from the United States District Court for
the District of Utah; (D.C. No. 2:08-CV-00315-CW).
Attorneys and Law Firms
Chad R. Derum, Manning Curtis Bradshaw & Bednar
PLLC (Jess M. Krannich and Trevor J. Lee, Manning
Curtis Bradshaw & Bednar PLLC, and Stephen H.M.
Bloch, Southern Utah Wilderness Alliance, with him
on the briefs), Salt Lake City, Utah, for MovantsAppellants.
James A. Maysonett, United States Department of
Justice, Environment & Natural Resources Division
(Jeffrey Bossert Clark, Assistant Attorney General,
and Eric Grant, Deputy Assistant Attorney General,
with him of the brief ), Washington, D.C., for
Defendant-Appellee United States of America.
Shawn T. Welch, Holland & Hart LLP (Richard D. Flint
and Chelsea J. Davis, Holland & Hart LLP, with him

App. 2
on the brief ), Salt Lake City, Utah, for PlaintiffAppellee Kane County, Utah.
Sean D. Reyes, Utah Attorney General, Anthony L.
Rampton, Kathy A.F. Davis, and David Halverson,
Assistant Attorneys, Utah Attorney General’s Office,
Salt Lake City, Utah, on the brief for the Intervenor
Plaintiff-Appellee The State of Utah.
Before TYMKOVICH, Chief
PHILLIPS, Circuit Judges.

Judge, EBEL, and

Opinion
PHILLIPS, Circuit Judge.
This case comes to us for a third time. This time,
we review SUWA’s challenge to the district court’s
denial of its second motion to intervene. SUWA filed
this second motion after we reversed the district
court’s determinations on the width of rights-of-way on
three roadways. Responding to the issues now raised,
we conclude that SUWA has standing to intervene as
a party defendant; that we review SUWA’s second
motion to intervene de novo and not for an abuse of
discretion; and that SUWA has met all requirements
to intervene as of right under Rule 24(a)(2) of the
Federal Rules of Civil Procedure. Accordingly,
exercising jurisdiction under 28 U.S.C. § 1291, we
reverse the district court’s denial of SUWA’s second
motion to intervene.

App. 3
BACKGROUND
In 2008, Kane County sued the United States
under the Quiet Title Act, 28 U.S.C. § 2409a, which
provides “the exclusive means by which adverse
claimants c[an] challenge the United States’ title to
real property.” Block v. N. Dakota ex rel. Bd. of Univ. &
Sch. Lands, 461 U.S. 273, 286, 103 S.Ct. 1811, 75
L.Ed.2d 840 (1983). Kane County alleged that it held
title to fifteen rights-of-way under Section 8 of the
Mining Act of 1866, more commonly known as “Revised
Statute (R.S.) 2477.” In enacting R.S. 2477, Congress
codified “a standing offer of a free right of way over the
public domain,” allowing the construction of highways
over public lands not already “reserved for public uses.”
Lindsay Land & Live Stock Co. v. Churnos, 75 Utah
384, 285 P. 646, 648 (1929) (internal quotations
omitted). In 1976, Congress enacted the Federal Land
Policy and Management Act, which repealed R.S. 2477,
but preserved already-existing rights-of-way. 43 U.S.C.
§ 1769(a).
Seven months after Kane County filed its
complaint, SUWA1 moved to intervene as of right
under Rule 24(a)(2) of the Federal Rules of Civil
Procedure. Both Kane County and the United States
opposed the motion. After a hearing, the district court
denied SUWA’s motion, concluding that SUWA had no
legal interest in the asserted rights-of-way, because
1

SUWA is a member-based nonprofit dedicated to preserving
the wilderness of the Colorado Plateau. The Wilderness Society
and the Sierra Club both joined SUWA’s motion to intervene.

App. 4
“the only issue in this case is whether Kane County
can establish that it holds title to the roads at issue”
and SUWA “does not claim title to th[ese] roads.” Kane
Cty., Utah v. United States, No. 2:08-CV-315, 2009 WL
959804, at *2 (D. Utah Apr. 6, 2009). The court further
concluded that even if SUWA did have an interest, it
had failed to show that the United States would not
adequately represent that interest or that it possessed
“any special expertise, experience, or knowledge with
respect to the historic use of the roads that would not
be available to the United States.” Id. at *2–3.
In 2009, SUWA appealed, and in March 2010 we
affirmed, concluding that “even assuming SUWA has
an interest in the quiet title proceedings at issue,
SUWA has failed to establish that the United States
may not adequately represent SUWA’s interest.” Kane
Cty., Utah v. United States, 597 F.3d 1129, 1133 (10th
Cir. 2010) (“Kane County I”). Specifically, we rejected
SUWA’s argument that it had shown the United States
would not adequately represent SUWA’s interest in
litigating title, despite SUWA’s reliance on its history
of adversarial relations with the Bureau of Land
Management (BLM) and on the BLM’s alleged
unwillingness to defend federal control. Id. at 1134–35.
We raised the possibility of looking beyond the
binary title determination to address the “potential
scope of Kane County’s purported rights-of-way.” Id. at
1135. But we ultimately declined to do so after noting
that SUWA had not argued in the district court that
scope was part of the title determination. Id. Further,
we noted that SUWA hadn’t even raised the issue on

App. 5
appeal until questioned about it during oral argument.
Id. Accordingly, we deemed the scope argument waived
“for purposes of this appeal.” Id. We affirmed on
grounds that SUWA had “failed to establish, at this
stage of the litigation, that the federal government will
not adequately protect its interest.” Id.
In March 2010, soon after we decided Kane County
I, the district court granted the State of Utah’s motion
to intervene as of right as a plaintiff. Then, in August
2011, after having “traveled all of the roads at issue
with counsel and representatives of the parties during
a two-day site visit,” the district court held a bench
trial on the disputed rights-of-way. See Kane Cty., Utah
(1) v. United States, No. 2:08-CV-00315, 2013 WL
1180764, at *1 (D. Utah Mar. 20, 2013). At trial, the
court heard from twenty-six witnesses and received
over one hundred and sixty exhibits. Kane Cty., Utah v.
United States, 772 F.3d 1205 (10th Cir. 2014). After
post-trial briefing, in which SUWA participated as an
amicus curiae,2 the district court issued memorandum
decisions concluding that (1) it had subject-matter
jurisdiction under the Quiet Title Act over all the
disputed roads, and that (2) Kane County and the
2

The district court allowed SUWA to participate as amicus
in a limited capacity. The court denied SUWA’s request to address
the court during trial, but did accept three of its post-trial briefs
(though it limited SUWA to those briefs). And in one of its posttrial memorandum decisions, the district court considered
SUWA’s jurisdictional arguments. See Kane Cty., Utah v. United
States, 934 F. Supp. 2d 1344, 1347, 1360–64 (D. Utah 2013), aff ’d
in part, rev’d in part and remanded, 772 F.3d 1205 (10th Cir.
2014).

App. 6
State of Utah had proved R.S. 2477 rights-of-way on
twelve of the fifteen roads or road segments. Id. The
court also decided the scope—i.e., the reasonable and
necessary width based on the pre-1976 use—of the
proved rights-of-way. Id.
In 2013, the United States and the plaintiffs each
filed separate appeals. We summarily denied SUWA’s
motion to intervene in the cross-appeals. In 2014, we
affirmed in part and reversed in part. Kane Cty., 772
F.3d at 1209–25 (“Kane County II”). Relevant here, we
reversed the district court’s scope determination for
three of the rights-of-way—Swallow Park Road, North
Swag Road, and Skutumpah Road—as well as its
decision to allow “unspecified future improvements” on
these three rights-of-way, id. at 1223–25.3
The “scope” of a right-of-way is a question of state
law, and under Utah law a right-of-way may be
expanded beyond the beaten path where “reasonable
and necessary” to safely accommodate the pre-1976
use. Sierra Club v. Hodel, 848 F.2d 1068, 1080, 1083
(10th Cir. 1988), overruled on other grounds by Vill. of
Los Ranchos De Albuquerque v. Marsh, 956 F.2d 970
(10th Cir. 1992). In other words, an R.S. 2477 right-ofway in Utah may be widened “as necessary to meet the
3

Though not at issue here, we also reversed the district
court’s finding of subject-matter jurisdiction to resolve title over
six of the roads, id. at 1213–14; affirmed the district court’s
determination that the limitations period had not yet run on one
of the roads, id. at 1216–19; and reversed the district court’s
determination that one of the roads was “reserved for public use”
under R.S. 2477, id. at 1222.

App. 7
exigencies of increased travel, at least to the extent of
a two-lane road.” Id. at 1083. This analysis requires the
district court to proceed in three steps. First, the court
must make the binary determination of whether a
right-of-way exists at all. Id. Second, the court must
determine the pre-1976 uses of the right-of-way. Id.
And third, the court must decide whether, based on the
pre-1976 use, the right-of-way should be widened to
meet the exigencies of increased travel. Id. To the
extent that the right-of-way holder wishes to improve4
the right-of-way beyond what is reasonable and
4

We have distinguished between “routine maintenance,
which does not require consultation with the BLM,” and
“construction of improvements, which does.” S. Utah Wilderness
All. v. Bureau of Land Mgmt., 425 F.3d 735, 748–49 (10th Cir.
2005), as amended on denial of reh’g (Jan. 6, 2006). “Construction
of improvements” includes “the widening of the road, the
horizontal or vertical realignment of the road, the installation (as
distinguished from cleaning, repair, or replacement in kind) of
bridges, culverts and other drainage structures, as well as any
significant change in the surface composition of the road (e.g.,
going from dirt to gravel, from gravel to chipseal, from chipseal to
asphalt, etc.), or any improvement, betterment, or any other
change in the nature of the road that may significantly impact Park
lands, resources, or values. Id. (internal quotations omitted). In
contrast, “routine maintenance” “preserves the existing road,
including the physical upkeep or repair of wear or damage
whether from natural or other causes, maintaining the shape of
the road, grading it, making sure that the shape of the road
permits drainage, and keeping drainage features open and
operable—essentially preserving the status quo.” Id. (alterations
omitted). “Under this definition, grading or blading a road for the
first time would constitute ‘construction’ and would require
advance consultation, though grading or blading a road to
preserve the character of the road in accordance with prior
practice would not.” Id.

App. 8
necessary, however, it must first consult with the BLM.
Id. at 1084–85.
In its memorandum decision, the district court
had concluded that Kane County and the State of Utah
had proved 24-foot rights-of-way on Swallow Park and
North Swag roads (five-mile stretches of dirt road with
a current travel surface of between 10 and 12 feet), and
a 66-foot right-of-way on Skutumpah Road (a “major
two-lane thoroughfare” stretching thirty three miles
with a current travel surface of between 24 and 28
feet). Kane Cty. II, 772 F.3d at 1223; Kane Cty., 2013
WL 1180764, at *9. But because the district court had
failed to consider the pre-1976 uses of these roads, we
remanded for it to redetermine the width of the
roadways. Kane Cty. II, 772 F.3d at 1223. Specifically,
we recognized that while a “road can be ‘widened
[beyond its pre-1976 boundaries] to meet the
exigencies of increased travel,’ including where
necessary to ensure safety,” the reasonableness and
necessity of any expansion beyond the pre-1976 rightof-way must be read “ ‘in the light of traditional uses to
which the right-of-way was put.’ ” Id. (emphasis in
original) (quoting Hodel, 848 F.2d at 1083).5
After remand, the case slowed until September
2017, when the district court entered an order
directing the parties to file briefs on the effect of our
5

Kane County and the State of Utah each unsuccessfully
petitioned the United States Supreme Court for a writ of
certiorari. Kane Cty., Utah v. United States, ___ U.S. ___, 136
S. Ct. 318, 193 L.Ed.2d 228 (2015); Kane Cty., Utah v. United
States, ___ U.S. ___, 136 S. Ct. 319, 193 L.Ed.2d 228 (2015).

App. 9
ruling. Ten days later, the parties jointly moved for a
four-month stay, stating that they had begun settlement discussions and were “optimistic” that they could
“reach agreement regarding the effect of [our] decision”
and resolve the remaining issues. Appellant’s App. at
38, 110–11. Three days later, the district court granted
the motion.6 About two months after that, SUWA sent
a letter to the parties requesting “reasonable advance
notice” of any settlement discussions and “an opportunity to attend and participate in such discussions,”
but received no response. Id. at 125, 262–63. About
three months after the joint motion was filed, the
President of the United States considerably reduced
the size of the Grand-Staircase-Escalante National
Monument from about 1,700,000 acres to about
838,000 acres.7 Relevant here, SUWA represented at
6

On January 2, 2018, the parties jointly requested and were
granted an additional stay of 31 days. The day the second stay
expired, Kane County filed a “Supplemental Brief and Request for
Further Findings of Fact and Conclusions of Law,” asking the
court to conduct an additional site inspection. The United States
responded, agreeing that further fact-finding was necessary, but
asserting that the existing record could be supplemented by lay
and expert testimony without a second site visit.
7
See Presidential Proclamation Modifying the Grand StaircaseEscalante National Monument, 2017 WL 5988612, https://www.
whitehouse.gov/presidential-actions/presidential-proclamationmodifying-grand-staircase-escalante-national-monument/. This
proclamation, along with a proclamation reducing Bears Ears
ational Monument from around 1,350,000 acres to about 200,000
acres, were the first diminishments of a national monument in
over half a century, and by far the largest in U.S. history. See
National Park Service, Monuments List, https://www.nps.
gov/archeology/sites/antiquities/monumentslist.htm (last visited
June 6, 2019).

App. 10
oral argument that Swallow Park Road and North
Swag Road both lie within the de-established portions
of the monument, though the United States asserted
that only Swallow Park Road does. About three weeks
later, SUWA filed a second motion to intervene,8 which
Kane County, the State of Utah, and the United States
all opposed.
Though SUWA styled its 2017 motion as a “Motion
to Intervene,” the district court treated it as a motion
to reconsider its denial of SUWA’s 2009 motion to
intervene. In deciding the motion, the district court
assumed for purposes of argument that the motion was
timely, but still denied it on grounds that SUWA had
presented nothing to undermine the court’s earlier
determination that the United States was adequately
representing SUWA’s interest. In doing so, the district
court relied on three bases.
First, rejecting SUWA’s argument to the contrary,
the district court ruled that determining title
necessarily includes determining the scope of the
rights-of-way. The district court reasoned that “scope is
inherent in the quiet title process because as a
practical matter the court cannot quiet title to an
undefined property.” Kane Cty., Utah v. United States,
No. 2:08-CV-315, 2018 WL 3999575, at *3 (D. Utah
Aug. 21, 2018). Second, the court rejected SUWA’s
argument that the United States was necessarily
representing competing interests, reasoning that
8

The Wilderness Society joined the second intervention
motion, but the Sierra Club did not.

App. 11
unlike cases involving environmental regulations or
resource management, the United States’ sole interest
here lay in seeking the narrowest width of the
roadways. Id. Third, the court ruled that the “mere
possibility of settlement” did not mean that “the
United States would advocate for anything other than
retention of the maximum amount of property.” Id.
SUWA timely appealed.
DISCUSSION
SUWA argues that the district court erred by
denying its second motion to intervene. Kane County,
the State of Utah, and the United States (“the
Appellees”) have each filed response briefs in support
of the district court’s order. Before considering the
merits of their arguments, we must consider Kane
County’s argument that SUWA lacks Article III
standing.9
I.

Standing

To seek relief in federal court, a party must show
constitutional standing. Bennett v. Spear, 520 U.S. 154,
162, 117 S.Ct. 1154, 137 L.Ed.2d 281 (1997). To make
this showing, a party must “demonstrate that he has
suffered injury in fact, that the injury is fairly
traceable to the [challenged conduct], and that the
injury will likely be redressed by a favorable decision.”
Id. (internal quotations omitted).
9

The Appellees make no prudential-standing arguments.

App. 12
In San Juan Cty., Utah v. United States, another
R.S. 2477 case involving SUWA, a majority10 of our en
banc court held that “parties seeking to intervene
under Rule 24(a) or (b) need not establish Article III
standing ‘so long as another party with constitutional
standing on the same side as the intervenor remains
in the case.’ ” 503 F.3d 1163, 1172 (10th Cir. 2007) (en
banc) (internal quotations omitted).
But ten years later, the Supreme Court modified
our “piggyback standing” rule, holding that an intervenor as of right must “meet the requirements of
Article III if the intervenor wishes to pursue relief not
requested” by an existing party. Town of Chester, N.Y.
v. Laroe Estates, Inc., ___ U.S. ___, 137 S. Ct. 1645,
1648, 198 L.Ed.2d 64 (2017). In that case, the record
was ambiguous whether the intervening plaintiff was
seeking a different form of relief from the existing
plaintiff: a separate award of money damages against
the same defendant in its own name. Id. at 1651–52.
Because “[a]t least one [litigant] must have standing to
seek each form of relief requested,” the Court
remanded for the circuit court to determine whether
the intervenor, in fact, sought “additional relief
beyond” what the plaintiff requested. Id. at 1651.11

10

Unless we indicate otherwise, every citation to San Juan
County refers to a portion of Judge Hartz’s lead opinion that
received seven votes.
11
The dissent cites Safe Streets Alliance v. Hickenlooper, 859
F.3d 865, 913 (10th Cir. 2017), for the proposition that “any party”
seeking to intervene must demonstrate its own independent
Article III standing. Dissenting Op. at 898–99. But language to

App. 13
Citing Town of Chester,12 Kane County argues that
SUWA cannot simply invoke the United States’ Article
that effect in Safe Streets is dicta. Safe Streets involved two States
(Nebraska and Oklahoma) seeking to intervene as plaintiffs in an
action against another State, Colorado. There, we held that we
were without subject matter jurisdiction to consider the State’s
intervention motion, because 28 U.S.C. § 1251(a) gave exclusive
subject-matter jurisdiction to the United States Supreme Court
to resolve disputes between two states. Id. at 877, 912. Furthermore, Safe Streets relied on Hollingsworth v. Perry, 570 U.S.
693, 708, 133 S.Ct. 2652, 186 L.Ed.2d 768 (2013), for this dicta
about constitutional standing, but Hollingsworth, in fact, applied
the piggyback standing rule. There, the intervenors had to demonstrate their own standing because they were the sole parties to
seek an appeal. Id. at 702, 708, 133 S.Ct. 2652. Here, the United
States remains a party. The dissent also cites United States v.
Colorado & Eastern Railroad Company, 882 F.3d 1264 (10th Cir.
2018). But again, that case is inapposite because there the wouldbe intervenor seeking to enforce a consent decree that it was not
a party to “could not ‘piggyback’ on the standing of one of the
described parties to the Consent Decree because there was no
current case or controversy pending before the court on the part
of those parties.” Id. at 1268. In contrast, there exists a live controversy between the United States and the plaintiffs in this case.
12
Town of Chester involved a plaintiff-side intervenor, but
we see no reason not to apply that rule to defendant-side
intervenors as well. See Pennsylvania v. President United States
of Am., 888 F.3d 52, 57 n.2 (3d Cir. 2018) (holding that a specialinterest group seeking to intervene as a defendant to defend a
challenged federal law did not need to demonstrate Article III
standing, because the group was seeking “the same relief as the
federal government,” namely, the upholding of the law). In the
action before us, the distinction between a plaintiff-side and
defendant-side intervenor is unimportant, considering how easily
a similar dispute could have been presented at the federal
government’s initiative as a plaintiff. See e.g., Kane Cty., 934
F. Supp. 2d at 1363 (noting that, before Kane County brought this
quiet-title action, the BLM had sued Kane County for trespass
regarding the same roads at issue here).

App. 14
III standing, contending that SUWA and the United
States are pursuing different relief. We disagree with
that view. After all, the United States has informed us
that it seeks “retention of the maximum amount of
property” and will argue for “the smallest widths [it]
can based on the historical evidence,” the same relief
that SUWA seeks.13 See United States’ Resp. Br. at 22,
32; Oral Arg., at 18:30.
Moreover, even if SUWA needed to establish its
own independent standing, it has done so. Article III
standing requires a litigant to show: (1) an injury in
fact that is (a) concrete and particularized and (b)
13

Contrary to the dissent’s view, see Dissenting Op. at 898,
the interests of the United States and SUWA are not necessarily
identical under Rule 24(a)(2) just because they pursue the same
form of relief for piggyback standing under Town of Chester. See
e.g., Coal. of Ariz./N.M. Ctys. for Stable Econ. Growth v. Dep’t of
Interior, 100 F.3d 837, 845 (10th Cir. 1996) (concluding that
interests were not identical even though both the government and
the intervenor sought to uphold the Mexican Spotted Owl’s
protection); Utah Ass’n of Ctys. v. Clinton, 255 F.3d 1246, 1256
(10th Cir. 2001) (concluding that interests were not identical even
though the government and the intervenor both sought to uphold
the proclamation creating a national monument). To hold otherwise would leave movants who pursued the same form of relief as
the representative party per se adequately represented under
Rule 24(a)(2) and thus denied intervention under Town of
Chester. See Pennsylvania v. President United States of Am., 888
F.3d 52, 57 n.2, 60–62 (3d Cir. 2018) (finding inadequate
representation where the intervenors pursued the same relief as
the party with standing under Town of Chester); Doe v. Zucker,
No. 117CV1005GTSCFH, 2019 WL 111020, at *10, *12 (N.D.N.Y.
Jan. 4, 2019) (same) (“Even though Respondents and IntervenerRespondents seek the same ultimate relief [under Town of Chester], their interests remain different enough that Respondents
might not adequately represent their unique interests.”).

App. 15
actual or imminent, not conjectural or hypothetical; (2)
the injury is fairly traceable to the challenged conduct;
and (3) the injury can likely be redressed by a
favorable decision. Friends of the Earth, Inc. v. Laidlaw
Envtl. Servs. (TOC), Inc., 528 U.S. 167, 180–81, 120
S.Ct. 693, 145 L.Ed.2d 610 (2000).
Here, as in San Juan County, it is “indisputable
that SUWA’s environmental concern is a legally protectable interest.” See 503 F.3d at 1199. To prove an
injury in fact, SUWA must establish an actual or
imminent impairment of that interest. Imminence is “a
somewhat elastic concept,” Lujan v. Defs. of Wildlife,
504 U.S. 555, 564, 112 S.Ct. 2130, 119 L.Ed.2d 351
(1992), and “[a]n allegation of future injury may suffice
if the threatened injury is certainly impending, or
there is a substantial risk that the harm will occur,”
Susan B. Anthony List v. Driehaus, 573 U.S. 149, 158,
134 S.Ct. 2334, 189 L.Ed.2d 246 (2014) (internal
quotations omitted).
Under this standard, we conclude that SUWA has
established an imminent injury. Kane County and the
State of Utah seek to double the width of Swallow Park
and North Swag roads, which are both dirt roads, and
to more than double the width of Skutumpah Road.
Wider roads will likely require realignments or
improvements, such as grading or paving. See
generally, Hodel, 848 F.2d at 1084–86; Kane Cty., 2013
WL 1180764. Such widening and improvement of the
roads in a scenic area would almost inevitably increase
traffic, diminishing the enjoyment of the nearby
natural wilderness. See Hodel, 848 F.2d at 1092 (noting

App. 16
that a project involving “realignments, widening, . . .
[and] a significant improvement in the quality of the
road surface” would accommodate “large increases in
future traffic” on the road); S. Utah Wilderness All., 425
F.3d at 748 (noting that improvements may “change
the character of the roadway”).
Nor is such an injury speculative. An injury may
be imminent even though contingent upon an
unfavorable outcome in litigation. See Protocols, LLC
v. Leavitt, 549 F.3d 1294, 1299 (10th Cir. 2008) (concluding that “[t]he consequences of a contingent
liability . . . may well be actual or imminent” even
though “by definition [such liability] may not arise for
a considerable time, if ever”). In San Juan County, we
recognized that “if the County prevails, it will then
pursue opening the road to vehicular traffic that
SUWA has been trying to prevent.” 503 F.3d at 1200.
For that reason, we saw “nothing speculative about the
impact on SUWA’s interests if the County prevails in
its quiet-title action,” noting that “the whole point of ”
Kane County’s suit was to increase traffic on the
roads.14 Id. at 1201–02. We acknowledge that San Juan
14

Though this portion of the opinion concerned the potential
impairment of SUWA’s interests under Rule 24(a)(2), other courts
have recognized that “any person who satisfies Rule 24(a) will
also meet Article III’s standing requirement.” Roeder v. Islamic
Republic of Iran, 333 F.3d 228, 233 (D.C. Cir. 2003); see also
Sokaogon Chippewa Cmty. v. Babbitt, 214 F.3d 941, 946 (7th Cir.
2000) (“Any interest of such magnitude as to support Rule 24(a)
intervention of right is sufficient to satisfy the Article III standing
requirement as well.”) (internal quotations and alterations
omitted).

App. 17
County involved the possibility of reopening closed
roads, as opposed to widening already-opened roads, as
here—but we view both as sufficient degrees of impact.
A 24-foot road allows more traffic than a 10- or 12-foot
road (in the case of North Swag and Swallow Park
roads), and a 66-foot road allows more traffic than a
24- to 28-foot road (in the case of Skutumpah Road).
And the more traffic, the more of an impact on the
natural wilderness. Therefore, even assuming SUWA
were required to establish its own Article III standing,
we conclude that it has done so. See Laidlaw, 528 U.S.
at 180–81, 120 S.Ct. 693.
II. Standard of Review
Under Rule 24(a)(2) of the Federal Rules of Civil
Procedure, a non-party seeking to intervene as of right
must establish (1) timeliness, (2) an interest relating
to the property or transaction that is the subject of the
action, (3) the potential impairment of that interest,
and (4) inadequate representation by existing parties.
W. Energy All. v. Zinke, 877 F.3d 1157, 1164 (10th Cir.
2017). We review a district court’s timeliness ruling for
an abuse of discretion, unless the district court makes
no findings on timeliness; in that case, we review de
novo. Utah Ass’n of Ctys. v. Clinton, 255 F.3d 1246, 1249
(10th Cir. 2001). And, at least for initial motions to
intervene, we review the district court’s rulings on the
other three prongs de novo. Coal. of Ariz./N.M. Ctys. for
Stable Econ. Growth v. Dep’t of Interior, 100 F.3d 837,
840 (10th Cir. 1996).

App. 18
SUWA filed its second motion to intervene nine
years after filing its first.15 SUWA argues that the
district court erred in treating its second motion as one
for reconsideration of its denial of the first motion to
intervene. Instead, SUWA says, we should review de
novo, because it did “not ask the Court to second guess
its prior ruling or review previously existing but newly
discovered facts,” but rather to consider “a new
political and legal landscape that did not exist when
SUWA moved to intervene a decade ago.” SUWA’s
Opening Br. at 12 n.47. In contrast, the Appellees
argue that this court should treat SUWA’s second
motion as a mere request to reconsider the denial of its
2008 motion to intervene. From this, they argue that
the proper standard of review is for an abuse of
discretion. See United States v. Huff, 782 F.3d 1221,
1224 (10th Cir. 2015) (“We review a district court’s
decision whether to reconsider a prior ruling for abuse
of discretion.”).
We agree with SUWA. Though our court has never
determined what standard of review applies to a
successive motion to intervene, we conclude that de
novo review is more appropriate when, as here, a
proposed intervenor shows that circumstances have
changed between the two motions to intervene.
15

Kane County represents that this is SUWA’s “fifth
attempt” to intervene in this case. See Kane Cty.’s Resp. Br. at 1.
To reach this figure, Kane County includes SUWA’s appeal of the
2008 denial, SUWA’s attempt to intervene in the Kane County II
appeal, and SUWA’s current appeal. We reject such a broad
characterization.

App. 19
In City of Colorado Springs v. Climax Molybdenum Co., a movant had filed three motions to intervene
over a nearly-fifty-year span. 587 F.3d 1071, 1077 (10th
Cir. 2009). Though we ultimately decided the case on
standing grounds, we stated that “[i]f we reach the
merits of Climax’s appeal, our review of the district
court’s denial of the motion to intervene as of right will
be de novo.” Id. at 1078.16
In addition, other cases in our circuit point us to
de novo review here. In San Juan County, seven judges
acknowledged that case developments can alter the
intervention calculus. In the lead opinion, Judge Hartz,
joined by two other judges, stated that the “denial [of a
motion to intervene] does not forever foreclose”
intervention and that “the matter may be revisited” if
“developments after the original application for intervention undermine” the basis for the initial denial. San
Juan Cty., 503 F.3d at 1207 (opinion of Hartz, J.). In
addition, Judge Ebel, joined by three other judges,
stated “I recognize, and appreciate the [lead opinion’s]
recognition that SUWA may renew its motion to
16

We note that the dissent’s cited cases on this point, Abeyta
v. City of Albuquerque, 664 F.3d 792, 796 (10th Cir. 2011), and
Plain v. Murphy Family Farms, 296 F.3d 975, 978 975, 978 (10th
Cir. 2002), contain stray comments characterizing a successive
motion for intervention as a motion to reconsider. See Dissenting
Op. at 901–02. But neither case involved an appeal of the denial
of an intervention motion. Rather, both cases conclude that a
nonparty cannot appeal an adverse judgment unless “the nonparty has a unique interest in the litigation and becomes involved
in the resolution of that interest in a timely fashion both at the
district court level and on appeal.” Abeyta, 664 F.3d at 796 (citing
Plain, 296 F.3d at 978).

App. 20
intervene at a later date if it can demonstrate more
clearly a conflict between its interests and the conduct
of the United States in this or subsequent litigation.”
Id. at 1227 (Ebel, J., concurring in part, and dissenting
in part). By emphasizing the possibility of changed circumstances, we view the seven judges as recognizing
the importance of another round of review. We see no
sense in blocking ourselves from the same de novo
review we give the initial motion to intervene—when
things have so changed.17 Significantly, our statement
in Kane County I also emphasizes a need to reevaluate
intervention when circumstances change.18 See Kane
Cty. I, 597 F.3d at 1135 (“[SUWA] has failed to
establish, at this stage of the litigation, that the federal
government will not adequately protect its interest.”)
(emphasis added).
III. SUWA is entitled to intervene as of right.
As previously noted, to intervene as of right SUWA
must establish that (1) the application is timely; (2) it
17

We discuss these developments later in Part III.C addressing adequate representation. In short, we consider a district
court’s moving from the binary title question to the more nuanced
scope question as a qualifying development, as well as the change
in presidential administration and its recent efforts to settle. See
Zinke, 877 F.3d at 1169 (“[T]he change in the Administration
raises the possibility of divergence of interest or a shift during
litigation.”) (internal quotations omitted).
18
Indeed, during oral argument in Kane County I, the panel
explored whether SUWA’s interests might not arise until after
title had been decided in favor of Kane County or the State of
Utah.

App. 21
claims an interest relating to the property or
transaction which is the subject of the action; (3) the
interest may as a practical matter be impaired or
impeded; and (4) the interest may not be adequately
represented by existing parties. Zinke, 877 F.3d at
1164. “This court has historically taken a liberal
approach to intervention and thus favors the granting
of motions to intervene.” Id. (internal quotations
omitted). In addition, “the requirements for intervention may be relaxed in cases raising significant
public interests.” San Juan Cty., 503 F.3d at 1201
(citing Cascade Nat. Gas Corp. v. El Paso Nat. Gas Co.,
386 U.S. 129, 136, 87 S.Ct. 932, 17 L.Ed.2d 814 (1967)).
We now consider each prong in turn.
A. SUWA’s motion is timely.
Kane County argues that SUWA’s motion is untimely. “The timeliness of a motion to intervene is
assessed ‘in light of all the circumstances, including
the length of time since the applicant knew of his
interest in the case, prejudice to the existing parties,
prejudice to the applicant, and the existence of any
unusual circumstances.’ ” Utah Ass’n of Ctys., 255 F.3d
at 1250 (quoting Sanguine, Ltd. v. U.S. Dep’t of Interior,
736 F.2d 1416, 1418 (10th Cir. 1984)). “[D]elay in itself
does not make a request for intervention untimely.”
Oklahoma ex rel. Edmondson v. Tyson Foods, Inc., 619
F.3d 1223, 1235 (10th Cir. 2010). “The other factors in
the test for untimeliness must also be considered.” Id.

App. 22
Reviewing de novo,19 we conclude that SUWA’s
motion is timely. First, SUWA filed the motion three
months after the parties’ joint motion to stay. See
Zinke, 877 F.3d at 1164–65 (holding that the motion
was timely where the intervenors moved to intervene
“just over two months after” learning of the lawsuit
that could potentially affect their interests). Second,
the only prejudice the Appellees allege is that “having
to respond to excess briefs” will “needlessly delay the
proceedings.” Kane Cty. Resp. Br. at 9. Even assuming
this could suffice to show prejudice, our court requires
that “the prejudice to other parties . . . be prejudice
caused by the movant’s delay, not by the mere fact of
intervention.” Tyson Foods, 619 F.3d at 1236. Here,
Kane County alleges prejudice just from the fact of
intervention. See id. SUWA’s participation will be
limited to litigating the scope of three roads, and there
has been no substantive briefing on this issue since the
remand, so we fail to see how allowing SUWA to
intervene at this stage would prejudice the Appellees.
See San Juan Cty., 503 F.3d at 1174 (“[T]he intervention of SUWA would not expose the United States
to any burden not inherent in the litigation to which it
has consented in the Quiet Title Act.”). Therefore,
because no “unusual circumstances” lead us to believe
otherwise, we conclude that SUWA’s motion is timely.
See Utah Ass’n of Ctys., 255 F.3d at 1250.

19

We review the timeliness prong de novo because the
district court made no timeliness findings. See Utah Ass’n of Ctys.,
255 F.3d at 1249.

App. 23
B. SUWA possesses an interest that may be
impaired by the litigation.
To meet the interest requirement, an applicant
“must have an interest that could be adversely affected
by the litigation.” San Juan Cty., 503 F.3d at 1199. We
apply “practical judgment” when “determining whether the strength of the interest and the potential risk of
injury to that interest justify intervention."20 Id.
Establishing the potential impairment of such an
interest “presents a minimal burden,” WildEarth
Guardians v. Nat’l Park Serv., 604 F.3d 1192, 1199
(10th Cir. 2010), and such an impairment may be
“contingent upon the outcome of [ ] litigation,” San
Juan Cty., 503 F.3d at 1203 (quoting United States v.
Union Elec. Co., 64 F.3d 1152, 1162 (8th Cir. 1995)). For
example, we have concluded that a commercial wildlife
photographer who had “photographed and studied the
[Mexican Spotted] Owl in the wild” and had been
instrumental in the decision to list the Owl under the
Endangered Species Act possessed a legal interest in
defending against a lawsuit to rescind that protection.
Coal. of Ariz./N.M. Ctys., 100 F.3d at 839–43.
In San Juan County, we concluded that it was
“indisputable that SUWA’s environmental concern is a
legally protectable interest.” 503 F.3d at 1199. But in
the present case, the district court declined to revisit
its 2009 ruling that SUWA possesses no legal interest
in the case. In that decision, the district court had
20

Though our court used to require an interest to be “direct,
substantial, and legally protectable,” we abandoned that test in
San Juan County, finding it “problematic.” 503 F.3d at 1192.

App. 24
reasoned that (1) “unlike the roads at issue in San
Juan County, the roads at issue here have been open
to the public for many years,” and (2) “the only issue in
this case is whether Kane County can establish that it
holds title to the roads at issue.” Kane Cty., 2009 WL
959804, at *2. These rationales are not persuasive.
First, as mentioned previously, we view the
difference in impacts between opening closed roads
and widening already-opened roads as one of degree.
Wider roads attract more traffic, which would impair
SUWA’s interest in preservation and enjoyment of the
surrounding land. Second, a majority of our court
recognized in San Juan County that although “SUWA
d[id] not claim that it ha[d] title” to the disputed rightof-way, Rule 24(a)(2) “requires only that the applicant
for intervention ‘claim an interest relating to the property or transaction which is the subject of the action.’ ”
503 F.3d at 1200 (alteration omitted) (emphasis in
original) (quoting Fed. R. Civ. P. 24(a)(2)). Given
SUWA’s decades-long history of advocating for the
protection of these federal public lands, and the
plaintiffs’ stated objective of widening these roads, we
conclude that SUWA has an interest that may be
impaired by the litigation. See id. at 1201; Coal. of
Ariz./N.M. Ctys., 100 F.3d at 838–41; Utah Ass’n of
Ctys., 255 F.3d at 1252.

App. 25
C. The United States may not adequately
represent SUWA’s interest.
Next, SUWA must show that existing parties may
not adequately represent its interest. This burden is
“minimal,” and “it is enough to show that the representation ‘may be’ inadequate.” Nat. Res. Def. Council
v. U.S. Nuclear Regulatory Comm’n, 578 F.2d 1341,
1345 (10th Cir. 1978) (quoting Trbovich v. United Mine
Wkers., 404 U.S. 528, 538 n.10, 92 S.Ct. 630, 30 L.Ed.2d
686 (1972)). “Of course, representation is not inadequate simply because the applicant and the representative disagree regarding the facts or law of the case.”
Sanguine, 736 F.2d at 1419. “Nor is representation
inadequate merely because the representative enters
into a [settlement], because any case, even the most
vigorously defended, may culminate in a [settlement].”
Id. (internal quotations omitted).
When a would-be intervenor’s and the representative party’s interests are “identical,” we presume
adequate representation. Bottoms v. Dresser Indus.,
Inc., 797 F.2d 869, 872 (10th Cir. 1986); see also Pub.
Serv. Co. of N.M. v. Barboan, 857 F.3d 1101, 1113–14
(10th Cir. 2017) (“When the applicant and an existing
party share an identical legal objective, we presume
that the party’s representation is adequate.”). But
where the purportedly adequate representative of the
proposed intervenor’s interest is a governmental
entity, “this presumption [can be] rebutted by the fact
that the public interest the government is obligated to
represent may differ from the would-be intervenor’s

App. 26
particular interest.” Utah Ass’n of Ctys., 255 F.3d at
1255.
Illustrative is WildEarth Guardians v. United
States Forest Service, a case in which we allowed a coal
company to intervene over an environmental group’s
opposition. 573 F.3d 992, 994–97 (10th Cir. 2009). The
environmental group had argued that the United
States and the coal company both advocated for
affirming an agency’s decision to allow venting of
methane gas from a mine. Id. at 994, 996. From this
shared objective, the environmental group argued that
the government adequately represented the company’s
interest. Id. We allowed intervention, noting that “the
government has multiple objectives and could well
decide to embrace some of the environmental goals”
that the company opposed. Id. at 997. Also illustrative
is Utah Association of Counties, where we allowed an
environmental group to intervene as of right in a suit
challenging the legality of the creation of the Grand
Staircase-Escalante National Monument. 255 F.3d at
1255–56. There, the Utah Association of Counties opposed intervention, arguing that the government and
the environmental group shared identical interests in
sustaining the monument. Id. We rejected this
argument, explaining that “[i]n litigating on behalf of
the general public, the government is obligated to
consider a broad spectrum of views, many of which
may conflict with the particular interest of the wouldbe intervenor.” Id. at 1256. The reasoning of these cases
supports SUWA’s intervention in the present case.

App. 27
Here, the parties agree that the only remaining
issue in the district court is the scope of three roads. In
deciding scope, the district court must determine
whether it is reasonable and necessary to widen the
roads to “meet the exigencies of increased travel . . . in
the light of traditional uses to which the right-of-way
was put.” Kane Cty. II, 772 F.3d at 1223 (emphasis
omitted) (quoting Hodel, 848 F.2d at 1083). SUWA
wants the narrowest roads allowed. We must decide
whether SUWA has met its minimal burden of
establishing that the United States may not
adequately represent this interest.
Relying on the above cases, SUWA first argues
that its interests are not identical to those of the
United States. In that circumstance, we do not apply a
presumption of adequate representation. More specifically, SUWA points to the broader interests the United
States must consider beyond seeking the narrowest
scope of the rights-of-way.
In addition, as it did in the district court, SUWA
argues that unlike a title determination, the scope
issues in the district court are not a binary choice.
Indeed, the title issues—Kane County’s and the State
of Utah’s rights-of-way—are now established, and not
contested on appeal. Instead, the intervenors seek to
participate in the limited issue on which we
remanded—the scope of the three remaining roads. In
contrast, the Appellees contend that the United States’
interests are identical to SUWA’s, arguing that this is
merely a “case about title,” and that the United States’
only interest is to advocate for the narrowest scope of

App. 28
the roads. United States’ Resp. Br. at 13–14, 17–19, 21,
31, 38; State of Utah’s Resp. Br. at 12–16. We agree
with SUWA.
In San Juan County, four judges expressly viewed
title and scope as separate determinations, observing
that the question of title is a “binary” determination,
while scope is much more “nuanced.” 503 F.3d at 1228
(Ebel, J., concurring in part, and dissenting in part).
We now adopt this reasoning. We read the lead opinion
the same way, as it noted that the United States’ single
objective was to defend “exclusive title."21 See id. at
1206 (Opinion of Hartz, J.); see also id. at 1228 (Ebel,
J., concurring in part, and dissenting in part) (quoting
lead opinion that “[s]hould it be determined that the
State or the County does hold a valid R.S. 2477 right
of way, the closure of Salt Creek Road to vehicular
traffic will be revisited to insure that it is consistent
with the rights associated with such a right-of-way”)
(alterations omitted) (emphasis in original).
We agree with the district court that “scope is
inherent in the quiet title process.” Kane Cty., 2018 WL
3999575, at *3. After all, a right-of-way must have a
scope. But the district court must determine title and
scope in separate steps. The district court itself
recognized this in its 2011 summary-judgment order
quieting title on many of the roads, while “reserv[ing]
for trial the scope of the rights-of-way.” See Kane Cty.,
2013 WL 1180764, at *3. Similarly, in Kane County II,
21

Neither Judge Kelly’s nor Judge McConnell’s concurrence
takes a position on the question of scope.

App. 29
we remanded for the district court to re-examine the
scope of three rights-of-way, leaving its title determination on those rights-of-way undisturbed. Kane
Cty. II, 772 F.3d at 1225. In other words, even upon
deciding the R.S. 2477 title issue on the rights-of-way,
the district court still needed to decide under Utah law
whether Kane County and the State of Utah were
entitled to widen the scope of the rights-of-way beyond
the beaten path existing before October 21, 1976, when
R.S. 2477 was repealed. See Hodel, 848 F.2d at 1083.
As more fully explained below, though SUWA and the
United States had identical interests in the title
determination, they do not on scope.
For a proposed intervenor to establish inadequate
representation by a representative party, “the possibility of divergence of interest need not be great,” Nat.
Res. Def. Council, 578 F.2d at 1346, and this showing
“is easily made” when the representative party is the
government, Utah Ass’n of Ctys., 255 F.3d at 1254.
SUWA’s goal is to limit as much as possible the number
of vehicles on the roads, but the United States’
objectives “involve a much broader range of interests,
including competing policy, economic, political, legal,
and environmental factors."22 See San Juan Cty., 503
22

The Appellees argue that SUWA waived this argument,
citing to our decision in Kane County I. But we merely deemed the
argument waived “for purposes of th[at] appeal.” Kane Cty. I, 597
F.3d at 1135. This is a new appeal. Scope was not yet at issue in
Kane County I, because title was yet to be decided. Moreover,
unlike nine years ago, when SUWA first raised scope “upon
questioning at oral argument,” see id., the Appellees have now
been afforded a full opportunity to brief the issue in this appeal.

App. 30
F.3d at 1229 (Ebel, J., concurring in part, and
dissenting in part) (citing 16 U.S.C. §§ 1, 1a-1, 271d).
The Appellees contend that this is merely a case about
property rights. But when that property is public land,
public interests are involved. See Block, 461 U.S. at
284–85, 290, 103 S.Ct. 1811 (noting that the Quiet Title
Act “was necessary for protection of national public
interests”). And “the government’s representation of
the public interest generally cannot be assumed to be
identical to the individual parochial interest of a
particular member of the public merely because both
entities occupy the same posture in the litigation.”
Utah Ass’n of Ctys., 255 F.3d at 1255–56. Indeed, “[w]e
have repeatedly pointed out that in such a situation
the government’s prospective task of protecting ‘not
only the interest of the public but also the private
interest of the petitioners in intervention’ is ‘on its face
impossible’ and creates the kind of conflict that
‘satisfies the minimal burden of showing inadequacy of
representation.’ ” Utahns for Better Transp. v. U.S.
Dep’t of Transp., 295 F.3d 1111, 1117 (10th Cir. 2002)
(quoting Nat’l Farm Lines v. I.C.C., 564 F.2d 381, 384
(10th Cir. 1977)).
SUWA is focused on pursuing the narrowest scope,
but many of the stakeholders involved may want wider
See Planned Parenthood of Kan. & Mid-Mo. v. Moser, 747 F.3d
814, 838 (10th Cir. 2014) (exercising our discretion to consider a
waived issue because the parties had an opportunity to brief the
issue and because it was “sufficiently substantial and important
to demand our attention”). We thus see no unfairness to the
Appellees in considering this “substantial and important” issue.
See id.

App. 31
roads. The United States represents these broadranging and competing interests, too. See San Juan
Cty., 503 F.3d at 1230 (Ebel, J., concurring in part, and
dissenting in part) (“[E]ven in this quiet title action,
the United States is representing multiple interests.”).
Indeed, even if the United States is advocating “as well
as can be expected” for the narrowest scope of the
roads, its conflicting interests render its representation inadequate. See Trbovich, 404 U.S. at 538–39, 92
S.Ct. 630 (finding the Secretary of Labor to be an
inadequate representative of a union member who
sought to set aside the results of a union-officer
election, because the Secretary had a statutory “duty
to serve two distinct interests, which are related, but
not identical”); see also Zinke, 877 F.3d at 1168 (“[T]he
government cannot adequately represent the interests
of a private intervenor and the interests of the public.”)
(emphasis in original); Coal. of Ariz./N.M. Ctys., 100
F.3d at 845 (“[The government] must represent the
public interest, which may differ from [the intervenor’s] particular interest.”); WildEarth Guardians,
573 F.3d at 997 (noting that the “government ha[d]
multiple objectives and could well decide to embrace”
some goals that the intervenor opposed).
In addition to the public interest, the United
States must consider internal interests, such as the
efficient administration of its own litigation resources.
When pressed at oral argument about whether it was
seeking a reviewable judicial order in this case, the
United States responded that it “ha[s] 12,000 of these
claims statewide” and is “interested in trying to resolve

App. 32
them as quickly and efficiently as [it] can,” see Oral
Argument at 24:30, an interest that SUWA certainly
doesn’t share.23 Moreover, the United States opposes
SUWA’s intervention motion—further indicating that
it may not adequately represent SUWA’s interests
here. See San Juan Cty., 503 F.3d at 1230 (Ebel, J.,
concurring in part, and dissenting in part) (“[T]he fact
that the United States has opposed SUWA’s
intervention in this action suggests that the United
States does not intend fully to represent SUWA’s
interests.”); cf. WildEarth Guardians, 573 F.3d at 997
(finding inadequate representation, in part, because
the representative party, while taking no position on
intervention, objected to the idea that it be required to
“coordinate filings with” the intervenor); Utah Ass’n of
Ctys., 255 F.3d at 1256 (“The government has taken no
position on the motion to intervene in this case. Its
silence on any intent to defend the intervenors’ special
interests is deafening.”) (internal quotations and
alterations omitted).
Given these conflicting interests, we conclude that
SUWA’s and the United States’ interests are not
identical. See Utah Ass’n of Ctys., 255 F.3d at 1255.
Therefore, no presumption of adequate representation
applies. See id.
Moreover, even if such a presumption were to
apply, we would conclude that SUWA has rebutted it.
23

An order approving a settlement agreement would be
reviewable only for an abuse of discretion. United States v.
Hardage, 982 F.2d 1491, 1495 (10th Cir. 1993).

App. 33
Our court has recognized that a “change in [presidential a]dministration raises ‘the possibility of divergence of interest’ or a ‘shift’ during litigation.” Zinke,
877 F.3d at 1169 (quoting WildEarth Guardians, 573
F.3d at 996–97). Here, the first significant docket
activity after the new administration came into office
was a motion in September 2017 to stay the case to
allow settlement discussions to resolve the remaining
issues. Though settlement negotiations, standing alone,
are not dispositive, see Sanguine, 736 F.2d at 1419, the
circumstances here suffice to satisfy the minimal
burden to show inadequate representation. We
rendered our decision in 2014 and issued the mandate
in February 2015, yet, the United States showed no
willingness to settle the case until two and half years
later, or six months after the new administration
inherited the litigation. See E.P.A. v. City of Green
Forest, Ark., 921 F.2d 1394, 1401 (8th Cir. 1990)
(reversing the denial of a second motion to intervene
because “[a]lthough the [movants] had expressed
concerns about possible settlement sixteen months
earlier, the settlement possibility [at that time] was
merely inchoate”). The United States points to its past
litigation conduct in this case, such as its successful
appeal in Kane County II, as evidence that it has no
intention of “capitulat[ing].” United States’ Resp. Br. at
9, 15, 24, 26–27, 32. But the Kane County II appeal was
litigated by the previous administration. See Utah
Ass’n of Ctys., 255 F.3d at 1256 (noting that “the
government’s past conduct” in litigation is not strong
evidence of adequacy because “it is not realistic to
assume that the agency’s programs will remain static

App. 34
or unaffected by unanticipated policy shifts”) (quoting
Kleissler v. U.S. Forest Serv., 157 F.3d 964, 974 (3d Cir.
1998)). Moreover, SUWA cites statements from parties
involved in the litigation that further support the
notion that the new administration may be more
inclined to settle.24
Significantly, although SUWA will not be entitled
to veto any settlement agreement between the United
States and the plaintiffs, see Local No. 93, Int’l Ass’n of
Firefighters, AFL-CIO C.L.C. v. City of Cleveland, 478
U.S. 501, 529, 106 S.Ct. 3063, 92 L.Ed.2d 405 (1986),
any settlement will require court approval. See Fed. R.
Civ. P. 41(a) (after an “opposing party serves either an
answer or a motion for summary judgment,” the action
may be dismissed “only by court order, on terms that
the court considers proper”); United States v. Colorado,
937 F.2d 505, 509 (10th Cir. 1991) (“[T]he district court
must ensure that the agreement is not illegal, a
product of collusion, or against the public interest.”).
24

SUWA cites a State of Utah attorney’s testimony before a
legislative committee in 2014, stating that “the federal government has taken the position that the only way we get an R.S.
2477 road is if a court orders it.” See Utah State Legislature,
Meeting of the Natural Resources, Agricultural, and Environmental Quality Appropriations Subcommittee, Public Lands
Office: RS 2477 Efforts and Results (Sept. 18, 2014), available at
http://utahlegislature.granicus.com/MediaPlayer.php?view_id=2&
clip_id=17764. Consistent with this testimony, SUWA also cites a
memo from a regional BLM director to the Acting BLM Solicitor,
which states that although settlement negotiations with the
previous administration had “broke[n] down,” the parties agreed
in April 2017 “to begin a dialogue to explore potential resolutions
to the R.S. 2477 issue[s in Utah] under th[e new] administration.”
Appellant’s App. vol. 1 at 133–34, 292–93.

App. 35
And SUWA will be “entitled to present evidence and
have its objections heard at the hearings on whether
to approve” such a settlement. See City of Cleveland,
478 U.S. at 529, 106 S.Ct. 3063. As an amicus, SUWA
would have no such rights.
In conclusion, given our court’s “relaxed” intervention requirements in “cases raising significant
public interests” such as this one, see San Juan Cty.,
503 F.3d at 1201, and our “liberal approach to
intervention,” see Zinke, 877 F.3d at 1164, we hold that
SUWA has satisfied its “minimal” burden of showing
that the United States may not adequately represent
its interests,25 see Nat. Res. Def. Council, 578 F.2d at
1345.
CONCLUSION
Consistent with this opinion, we reverse the
district court’s denial of SUWA’s motion to intervene.

25

SUWA also argues that the administration’s decision to
reduce by half the Grand Staircase-Escalante National Monument presents a basis to disbelieve that the United States will, in
fact, fight for the narrowest scope of the roads. As SUWA sees it,
if the administration is willing to rescind protections of a vast
expanse of land in the same area as the roads at issue, one could
reasonably infer that it may not vigorously fight for the smallest
scope of the roads. Because we find that SUWA has met its burden
without this evidence, we need not address this argument.

App. 36
TYMKOVICH, Chief Judge, dissenting.
Kane County and the State of Utah are engaged
in protracted litigation against the United States
under the Quiet Title Act. In 2008, the district court
denied the Southern Utah Wilderness Alliance’s first
attempt to intervene as of right under Federal Rule of
Civil Procedure 24(a), and this court affirmed that
judgment on appeal in 2010, finding the United States
adequately represented SUWA’s purported interest.
See Kane Cty. v. United States, 597 F.3d 1129 (10th Cir.
2010) (Kane Cty. I).
Today, however, this court reaches the opposite
conclusion. I respectfully dissent. In my view, SUWA
has not demonstrated a concrete injury giving it
standing to pursue a claim in federal court, nor can it
meet the requirements for mandatory intervention
under Rule 24.
I will first address our jurisdiction and explain
why I believe SUWA lacks standing to intervene, both
under Article III and under the third-party standing
doctrine. Then I will explain why, even if SUWA has
standing, the district court applied the correct
standard of review and did not err in denying
intervention.
A. Jurisdiction
“Standing is a threshold issue in every case before
a federal court.” Phila. Indem. Ins. Co. v. Lexington Ins.
Co., 845 F.3d 1330, 1334 (10th Cir. 2017). Our

App. 37
precedent is clear that a prospective intervenor must
possess Article III standing. United States v. Colo. & E.
R.R. Co., 882 F.3d 1264, 1269 (10th Cir. 2018); Safe
Streets All. v. Hickenlooper, 859 F.3d 865, 913 (10th Cir.
2017); see also Town of Chester v. Laroe Estates, Inc.,
___ U.S. ___, 137 S. Ct. 1645, 1651, 198 L.Ed.2d 64
(2017); Hollingsworth v. Perry, 570 U.S. 693, 704, 133
S.Ct. 2652, 186 L.Ed.2d 768 (2013).
Ensuring that every party before a federal court
possesses standing is essential because of the doctrine’s underpinnings in Article III of the Constitution,
which confines federal courts to adjudicating “cases”
and “controversies.” U.S. Const. art. III, § 2, cl. 1. The
doctrine also reflects “the separation-of-powers principles underlying that limitation.” Lexmark Int’l, Inc. v.
Static Control Components, Inc., 572 U.S. 118, 134
S. Ct. 1377, 1386, 188 L.Ed.2d 392 (2014). Entertaining parties that lack standing effectively disregards
the constitutional limits that circumscribe the power
of federal courts. This is because “an Article III case or
controversy joined by an intervenor who lacks standing ceases to be an Article III case or controversy.” See
N. Dakota ex rel. Stenehjem v. United States, 787 F.3d
918, 920 (8th Cir. 2015).
In prior cases involving SUWA, our circuit concluded that SUWA and other “parties seeking to
intervene under Rule 24(a) or (b) need not establish
Article III standing so long as another party with
constitutional standing on the same side as the intervenor remains in the case.” San Juan Cty. v. United
States, 503 F.3d 1163, 1172 (10th Cir. 2007) (en banc)

App. 38
(internal quotation marks omitted). But San Juan
County’s “piggyback standing” rule has since been
abrogated. In 2013, the Supreme Court held that “any
person invoking the power of a federal court must
demonstrate standing to do so,” Hollingsworth, 570
U.S. at 704, 133 S.Ct. 2652 (emphasis added), and
affirmed that a prerequisite to “intervene[ ] to defend”
one’s interest is “to assert an injury in fact of his own,”
id. at 708, 133 S.Ct. 2652. Three years later, the
Supreme Court unanimously affirmed “an intervenor
of right must have Article III standing in order to
pursue relief that is different from that which is sought
by a party with standing.” Town of Chester, 137 S. Ct.
at 1651.
The majority opinion here says SUWA seeks relief
identical to the United States because the government
has committed to “retention of the maximum amount
of property” and will argue for “the smallest widths [it]
can based on the historical evidence.” See op. at 887.
But this finding conflicts with the majority’s later
conclusion that the United States may not adequately
represent SUWA’s interests because “SUWA’s and the
United States’ interests are not identical,” id. at 895,
with respect to the scope of Kane County’s asserted
rights-of-way. See also id. at 895 (“SUWA is focused on
pursuing the narrowest scope [of road width], but
many of the stakeholders involved may want wider
roads. The Unites States represents these broadranging and competing interests, too.”). If SUWA seeks
identical relief to the United States—that is, federal
retention of the maximum amount of property—then

App. 39
the United States provides adequate representation of
SUWA’s interests, as we acknowledged in Kane County
I. If SUWA seeks relief different from the United
States—because the government does not, in fact, wish
to retain maximum property—then SUWA must
demonstrate that it possess standing according to
Town of Chester.1
This circuit has recognized the Supreme Court’s
abrogation of San Juan County’s piggyback rule for
intervenor standing in several published opinions,
regardless of whether the remedy sought is identical.
In Safe Streets Alliance, we affirmed that “Rule 24(a)’s
provisions cannot remove the Article III hurdle that
anyone faces when voluntarily seeking to enter a
federal court.” 859 F.3d at 912. We also recognized
“[t]he Supreme Court has held, moreover, that Article
III’s requirements apply to all intervenors, whether
they intervene to assert a claim or defend an interest.”
Id. (emphasis added). We reaffirmed that principle
again last year: “Any party, whether original or
intervening, that seeks relief from a federal court must
1

Perhaps the tension in the majority opinion might dissipate
if this were a case in which the government had to balance various
private and public interests. But because a Quiet Title Act suit is
not such a dispute, the situation here is unlike Pennsylvania v.
President United States of America, 888 F.3d 52, 59 (3d Cir. 2018),
or the other Administrative Procedure Act cases cited by the
majority. This is explained in greater detail in Section B.2. In fact,
the present suit resembles the case President distinguished, in
which the proposed intervenor “share[d] the same objective as the
United States” and “[a]ny differences” were “merely differences in
strategy.” United States v. Territory of the Virgin Islands, 748
F.3d 514, 522 (3d Cir. 2014).

App. 40
have standing to pursue its claims.” United States v.
Colo. & E. R.R. Co., 882 F.3d 1264, 1269 (10th Cir. 2018)
(quoting City of Colo. Springs v. Climax Molybdenum
Co., 587 F.3d 1071, 1078 (10th Cir. 2009)) (emphasis
added).
Despite SUWA’s assertions to the contrary, our
precedent shows SUWA must demonstrate it possesses
independent Article III standing to intervene in this
litigation. Nevertheless, the majority opines that
SUWA need not establish independent standing so
long as the United States remains a party. This
conclusion is, in my view, a return to the abrogated
reasoning of San Juan County in violation of clear,
binding precedent.
The majority goes on to say that, in any case,
SUWA has established standing. Our Article III and
third-party standing doctrines indicate otherwise.
1.

Constitutional Standing

To establish Article III standing, an intervenor
must first demonstrate “an ‘injury in fact’—an invasion
of a legally protected interest which is (a) concrete and
particularized, and (b) actual or imminent, not
conjectural or hypothetical.” Lujan v. Defs. of Wildlife,
504 U.S. 555, 560, 112 S.Ct. 2130, 119 L.Ed.2d 351
(1992) (cleaned up). “Second, there must be a causal
connection between the injury and the conduct
complained of—the injury has to be fairly traceable to
the challenged action of the defendant, and not the
result of the independent action of some third party

App. 41
not before the court.” Id. (cleaned up). “Third, it must
be ‘likely,’ as opposed to merely ‘speculative,’ that the
injury will be redressed by a favorable decision.” Id. at
561, 112 S.Ct. 2130 (some internal quotation marks
omitted).
An organization such as SUWA may assert
associational standing if “(a) its members would
otherwise have standing to sue in their own right; (b)
the interests it seeks to protect are germane to the
organization’s purpose; and (c) neither the claim
asserted nor the relief requested requires the
participation of individual members in the lawsuit.”
Collins v. Daniels, 916 F.3d 1302, 1312 (10th Cir. 2019).
SUWA asserts its environmental concern is “a
legally protectable interest” for purposes of Article III
standing. San Juan Cty., 503 F.3d at 1199. SUWA
reasons that a wider right-of-way determination would
lead Kane County to permit greater vehicular traffic,
which in turn would cause a concrete and particularized injury to its environmental interests, and that
this injury could be redressed by a successful defense
limiting the length and width of the roads.
An injury-in-fact must be both concrete and
particularized and actual or imminent. The asserted
injury cannot merely be speculative, however. The
“threatened injury must be certainly impending to
constitute injury in fact” and “allegations of possible
future injury are not sufficient.” Clapper v. Amnesty
Int’l USA, 568 U.S. 398, 409, 133 S.Ct. 1138, 185
L.Ed.2d 264 (2013) (cleaned up); see also Summers v.

App. 42
Earth Island Inst., 555 U.S. 488, 499, 129 S.Ct. 1142,
173 L.Ed.2d 1 (2009).
SUWA is correct that environmental interests,
such as “the desire to use or observe an animal species,
even for purely esthetic purposes, is undeniably a
cognizable interest for purpose of standing.” Lujan, 504
U.S. at 562–63, 112 S.Ct. 2130; see also S. Utah
Wilderness All. v. Palma, 707 F.3d 1143, 1155–56 (10th
Cir. 2013) (holding SUWA’s environmental interests
sufficiently concrete and particularized to challenge
drilling leaseholds). But SUWA merely conjectures
that (1) the United States will not zealously defend its
title to the relevant roads, (2) the title adjudication will
thus lead to an appreciably different outcome
regarding pre-1976 uses, (3) this appreciable difference
will lead Kane County to open the relevant roads to
greater vehicular traffic than it would have otherwise,
and finally (4) the greater vehicular traffic will, at the
margin, cause aesthetic environmental injury to
SUWA members who may return to the particular
areas in the future.
As was the case in Clapper, the path leading to
SUWA’s asserted injury is too attenuated to establish
Article III standing. This chain of events relies on a
patchwork of assumptions and possibilities resulting
from the decisions of multiple actors, each with its own
interests and institutional checks. A proposed party
cannot rely on mere “speculation” that its members
who have visited the relevant environmental locale
“will find their recreation burdened” in the future due
to an uncertain chain of events. Earth Island, 555 U.S.

App. 43
at 499, 129 S.Ct. 1142. Similarly, in Palma we
dismissed SUWA’s administrative challenge to BLM
drilling permits as unripe for judicial review because
“[t]here [was] simply too much uncertainty as to when
and what type of drilling, if any, [would] occur on the
thirty-nine contested leases.” 707 F.3d at 1160.
For these reasons, I would find SUWA’s alleged
injury is not an imminent injury-in-fact for purposes of
Article III standing.
2. Third-Party Standing
Even if SUWA could assert constitutional
standing, it would lack standing under the third-party
standing doctrine. “[A] party generally must assert his
own legal rights and interests, and cannot rest his
claim to relief on the legal rights or interests of third
parties.” Kowalski v. Tesmer, 543 U.S. 125, 129, 125
S.Ct. 564, 160 L.Ed.2d 519 (2004) (internal quotation
marks omitted); see also Collins, 916 F.3d at 1312–13.
An exception to this rule may apply when “the
party asserting the right has a close relationship with
the person who possesses the right [and] there is a
hindrance to the possessor’s ability to protect his own
interests.” Sessions v. Morales-Santana, ___ U.S. ___,
137 S. Ct. 1678, 1689, 198 L.Ed.2d 150 (2017). That
exception does not apply here. SUWA has no special
relationship with the United States and there is no
barrier preventing the United States from asserting its
right to title.

App. 44
This court previously applied the third-party
standing rule to hold SUWA lacked prudential
standing “to vindicate the property rights of the federal
government” in a nearly identical quiet title action.
Wilderness Soc’y v. Kane Cty., 632 F.3d 1162, 1165
(10th Cir. 2011) (en banc). In that case, we found
SUWA improperly “rest[ed] its claims on the federal
government’s property rights” and failed to “assert a
valid right to relief of its own.” Id. at 1170. Even the
dissent recognized that, if the statutory cause of action
properly belonged to the United States, SUWA might
not have standing. See id. at 1189–90 (Lucero, J.,
dissenting) (emphasizing the claim-focused nature of
prudential standing and distinguishing Warth v.
Seldin, 422 U.S. 490, 509–10, 95 S.Ct. 2197, 45 L.Ed.2d
343 (1975)).2
After Wilderness Society, the Supreme Court
substantially narrowed the category of prudential
standing. See Lexmark, 572 U.S. 118, 134 S.Ct. 1377,
188 L.Ed.2d 392. The Court did not, however, revisit
the doctrine of third-party standing. See id. at 127 n.3,
134 S.Ct. 1377 (“This case does not present any issue
of third-party standing, and consideration of that
doctrine’s proper place in the standing firmament can
2

In Wilderness Society, SUWA relied on an implied cause of
action under the Supremacy Clause of the Constitution—a cause
of action which is no longer recognized, see Armstrong v.
Exceptional Child Ctr., Inc., ___ U.S. ___, 135 S. Ct. 1378, 1383–
84, 191 L.Ed.2d 471 (2015), but which at the time could be
asserted by anyone. This is unlike a cause of action under the
Quiet Title Act, which may be raised only by a party asserting
title or interest in federally claimed land.

App. 45
await another day.”). The Supreme Court noted the
third-party standing rule is “closely related to the
question whether a person in the litigant’s position will
have a right of action on the claim.” Id. (internal
quotation marks omitted).3
Because Lexmark did not eliminate the thirdparty standing rule, our determination in Wilderness
Society remains sound. Indeed, in light of Lexmark, its
logic appears even stronger in this case. The only issue
on remand from the 2014 appeal is the length and
width of Kane County’s easements. An organization in
SUWA’s position does not possess a cause of action
under the Quiet Title Act because it does not assert
title to the roads. See 28 U.S.C. § 2409a(a), (d). The
cause of action properly belongs to Kane County and
Utah, because they do assert title. Even if we assume
SUWA will certainly suffer environmental injury, “that
doesn’t necessarily demonstrate that [it] has prudential standing to bring its . . . claims.” VR Acquisitions,
LLC v. Wasatch Cty., 853 F.3d 1142, 1147 (10th Cir.
2017); see also Hornish v. King Cty., 899 F.3d 680, 692
3

Third-party standing has been traditionally considered as
falling within the realm of “prudential standing.” See Elk Grove
Unified Sch. Dist. v. Newdow, 542 U.S. 1, 12, 124 S.Ct. 2301, 159
L.Ed.2d 98 (2004). But Lexmark casts doubt on this categorization
and suggests the notion of “prudential standing” is in “tension”
with the “virtually unflagging” duty of federal courts to “hear and
decide cases within its jurisdiction,” id. at 126, 134 S. Ct. 1377,
1386 (internal quotation marks omitted). It may be that the thirdparty standing rule, with its close connection to a party’s right of
action on a claim, should be considered as an aspect of Article III
standing or as a merits ruling concerning the scope of the
substantive right asserted.

App. 46
(9th Cir. 2018) (finding a party that possesses “no
property interests” in disputed land “cannot allege any
injury to such interests, and therefore lack[s] standing”
in a quiet title action).
Because SUWA’s claim to relief rests “on the legal
rights or interests of third parties,” Kowalski, 543 U.S.
at 129, 125 S.Ct. 564, I would also find SUWA lacks
standing under the third-party standing doctrine.
B. Intervention
Even if SUWA possessed standing to intervene,
the district court did not abuse its discretion in
determining SUWA fails to satisfy the Rule 24
requirements. Under Rule 24, an applicant may timely
intervene as of right if it
claims an interest relating to the property or
transaction that is the subject of the action,
and is so situated that disposing of the action
may as a practical matter impair or impede
the movant’s ability to protect its interest,
unless existing parties adequately represent
that interest.
Fed. R. Civ. P. 24(a)(2). SUWA alleges it has an interest
related to the property that may be impaired in the
litigation and the United States may not adequately
represent its interest.

App. 47
1. Standard of Review
“We review the district court’s denial of a motion
for reconsideration for abuse of discretion.” United
States v. Randall, 666 F.3d 1238, 1241 (10th Cir. 2011).
“Grounds warranting a motion to reconsider include
(1) an intervening change in the controlling law, (2)
new evidence previously unavailable, and (3) the need
to correct clear error or prevent manifest injustice.”
Servants of Paraclete v. Does, 204 F.3d 1005, 1012 (10th
Cir. 2000). “It is not appropriate to revisit issues
already addressed or advance arguments that could
have been raised in prior briefing.” Id.
SUWA argues the district court improperly
characterized its filing as a motion to reconsider, and
that we should treat its motion as one to intervene. The
majority agrees and proceeds to analyze the Rule 24
requirements of interest, impairment, and adequate
representation de novo, relying on City of Colorado
Springs v. Climax Molybdenum, Co., 587 F.3d 1071,
1078 (10th Cir. 2009). But Climax does not analyze
why the standard of review should be de novo in such
a case—though presumably it was because the issue
was not raised or even considered by the court. In any
event, its statement that the standard of review would
be de novo is pure dicta because the court never
reached the merits. And this court’s assurances in San
Juan County and Kane County I that SUWA could
always renew its motion to intervene at a later date
said nothing about what the proper standard of review
would be in such an instance.

App. 48
On the contrary, successive motions for intervention in the same case are frequently treated as
motions to reconsider. See, e.g., Abeyta v. City of
Albuquerque, 664 F.3d 792, 796 (10th Cir. 2011) (a
second motion to intervene is, in effect, a motion to
reconsider); Plain v. Murphy Family Farms, 296 F.3d
975, 978 (10th Cir. 2002) (same); see also Whitewood v.
Sec’y Pa. Dep’t of Health, 621 F. App’x 141, 144 (3d Cir.
2015) (unpublished) (finding a successive motion for
intervention was properly treated as a motion for
reconsideration); Calvert Fire Ins. Co. v. Environs Dev.
Corp., 601 F.2d 851, 857 (5th Cir. 1979) (same).
This result is rooted in the law-of-the-case doctrine and the mandate rule. See Huffman v. Saul
Holdings Ltd. P’ship, 262 F.3d 1128, 1132–33 (10th Cir.
2001); see also Ransmeier v. Mariani, 486 F. App’x 890,
892 (2d Cir. 2012) (treating a successive motion to
intervene as foreclosed by the law of the case). This is
because once “a case is appealed and remanded, the
decision of the appellate court establishes the law of
the case and ordinarily will be followed by both the
trial court on remand and the appellate court in any
subsequent appeal.” Huffman, 262 F.3d at 1132. A
district court may deviate from the law-of-the-case
doctrine and mandate rule when one of the Paraclete
circumstances is present: (1) a dramatic change in
legal authority, (2) significant new evidence unobtainable earlier, or (3) blatant error resulting in manifest
injustice. See id at 1133. And of course, such
circumstances are the same as those justifying a

App. 49
motion to reconsider, which is reviewed for abuse of
discretion.
Furthermore, as the majority acknowledges,
SUWA based its renewed motion for intervention on
changed circumstances—namely a new legal and
political landscape. See App. 119. SUWA’s reliance on
an intervening change of law or fact tracks the test for
a motion to reconsider, not a motion to intervene. See
Paraclete, 204 F.3d at 1012; see also F.W. Kerr Chem.
Co. v. Crandall Assoc., Inc., 815 F.2d 426, 428 (6th Cir.
1987) (“[A] successive motion [must] state new facts
warranting reconsideration of the prior decision.”).
In summary, I would apply the abuse of discretion
standard to evaluate whether the district court
properly denied SUWA’s successive motion to
intervene. That standard is more consistent with the
law-of-the-case doctrine and more suitable to SUWA’s
changed-circumstance arguments.
2. Impaired Interest
SUWA argues intervention is proper because it
has an environmental interest relating to wilderness
lands and resources that are crossed by or adjacent to
the three disputed roads. It asserts the district court
erred in finding no changed circumstances under
which the court should revisit its prior ruling on
SUWA’s impaired interest related to the roads.
This court applies a fact-specific inquiry to
determine whether a proposed intervenor possesses an

App. 50
interest satisfying the requirements of Rule 24(a)(2)
and (3). San Juan Cty., 503 F.3d at 1199. The district
court employed this method when it ruled on SUWA’s
first motion to intervene. See Kane Cty. v. United
States, No. 2:08-CV-315, 2009 WL 959804 (D. Utah Apr.
6, 2009). There, the district court noted the “factual
underpinnings of continuing controversy” that existed
in San Juan County did not exist in the instant case.
Id. at *2. It also observed title was the only issue in
dispute, not the management of adjacent lands or
whether the roads would be open to the public once
title is ascertained. Id. On appeal in 2010, we declined
to decide whether “SUWA has an interest in the quiet
title proceedings at issue.” Kane Cty. I, 597 F.3d at
1133.
We have previously said “Rule 24(a)(2) does not
speak of ‘an interest in the property’; rather, it requires
only that the applicant for intervention ‘claim[ ] an
interest relating to the property or transaction which
is the subject of the action.” San Juan Cty., 503 F.3d at
1200 (quoting Fed. R. Civ. P. 24(a)(2) (emphasis added).
Indeed, in San Juan County, we applied a fact-specific
inquiry to conclude “SUWA’s environmental concern
[was] a legally protectable interest” related to the
specific lands at issue in that case. Id. at 1199.3 In Kane
3

Six judges disagreed. They explained in two separate
concurrences that there “can be no logical or causal connection
between the interest in land use asserted by SUWA and the
dispute over land ownership in this case; a mere change in
ownership will have no practical effect on the land’s use, just as a
change in the land’s use would not affect the ownership” of the
roads. San Juan Cty., 503 F.3d at 1208 (Kelly, J., concurring in

App. 51
County I, however, we acknowledged “San Juan
County does not mandate a particular outcome in this
case,” given the fact-dependent nature of the inquiry.
597 F.3d at 1134.
Now that the issue is before us once again, I would
conclude the district court reasonably determined the
applicable law and issues on partial remand were the
same as they were when the district court rendered its
initial decision on SUWA’s motion to intervene. Thus,
in my view, the district court did not abuse its
discretion in denying SUWA’s motion to reconsider.
SUWA relies on Utah Association of Counties v.
Clinton, 255 F.3d 1246 (10th Cir. 2001), to argue that
anything but the narrowest title determination will
impair its environmental interest, and the court
appears to adopt this reasoning, see op. at 891–92. But
unlike Utah Association of Counties, which involved
the designation of a national monument and necessarily required balancing competing perspectives of
the public interest, see 255 F.3d at 1248, this action
simply addresses title. Quieting title does not bring
any new rights into existence or require evaluation of
the public interest, it merely clarifies already existing

the judgment) (internal quotation marks omitted). In short, “it is
hard to see how SUWA . . . can be considered a party to the
question of what real property the United States owns, or
whether the United States granted an easement to [the County]
decades ago.” Id. at 1210 (McConnell, J., concurring in the
judgment).

App. 52
property rights based on historical uses.4 See Stenehjem,
787 F.3d at 921. The district court’s final determination
of title does not change land management or status.
More importantly, the question on partial remand is
even narrower than it was the last time the district
court denied intervention: title to the easements has
been ascertained and only the length and width of
those easements is now in question. That inquiry turns
only on pre-1976 use and does not require evaluation
of competing public interests.
Because no intervening change of fact or law with
respect to SUWA’s alleged interest compels a different
result, the district court did not abuse its discretion in
declining to reconsider SUWA’s motion for intervention. The district court’s decision does not prevent
SUWA from presenting its environmental concerns as
amicus, nor does it preclude SUWA from asserting its
alleged interests through other lawsuits or administrative challenges to federal use or management of
lands adjoining the road easements.
3. Adequate Representation
We presume adequate representation “when the
objective of the applicant for intervention is identical
to that of one of the parties.” San Juan Cty., 503 F.3d
4

By statute, national monuments and wilderness study
areas are expressly “subject to valid existing rights.” Pub. L. No.
94–579, § 701(h), 90 Stat. 2743, 2786; accord 43 U.S.C. § 1782(c)
(providing the Secretary must manage wilderness study areas
“subject . . . to the continuation of existing . . . uses”).

App. 53
at 1204. This presumption applies “when the government is a party pursuing a single objective.” Id. The
majority opines that, like WildEarth Guardians v.
United States Forest Service, 573 F.3d 992, 994–97
(10th Cir. 2009), and Utah Association of Counties, the
presumption of adequate representation does not
apply because the government has multiple objectives
and must consider a broad spectrum of views. But as I
have already noted, this action simply addresses title.
Although a shift in government policy may be enough
to upset the presumption of adequate representation
in an Administrative Procedure Act challenge, such as
in WildEarth or Utah Association of Counties, it is
difficult to see how it could be enough in a Quiet Title
Act action that turns solely on pre-1976 use and does
not involve any question of land-use or management
policy. WildEarth itself said as much when it distinguished San Juan County: “We were not informed of
any potential federal policy that could be advanced by
the government’s relinquishing its claim of title to the
road.” 573 F.3d at 997.
The last time this court considered SUWA’s
motion to intervene in this litigation, it held SUWA
had failed to carry its minimal burden of demonstrating inadequate representation. We observed that
“SUWA’s disagreement with the United States’ land
management decisions in the past does not
demonstrate that the United States is an inadequate
representative in this title dispute, which is ultimately
grounded in non-federal activities that predate those
management decisions.” Kane Cty. I, 597 F.3d at 1135.

App. 54
Furthermore, we noted SUWA had waived the
argument “that SUWA and the United States might
disagree as to the potential scope of Kane County’s
purported rights-of-way.” Id. Today, the majority resurrects an argument we ruled dead-on-arrival in Kane
County I and essentially offers SUWA a second chance
to cure its waiver.
SUWA emphasizes two circumstances it says have
changed since the courts last considered its motion to
intervene: (1) the change in presidential administration, and (2) the length and width of the three
rights-of-way is now squarely presented to the district
court and may be settled by the parties.
With respect to the first circumstance, SUWA
extensively relates how the current presidential
administration and BLM’s approach to wilderness
protection differs from that of their predecessors and
explains the adversarial relations between itself and
the new administration. This argument is nearly identical, as the government points out, to the argument
SUWA raised and we rejected in the previous appeal—
namely, that SUWA’s “history of adversarial relations
between itself and [federal defendants]” is inconsistent
with adequate representation. Id. at 1134.
Moreover, SUWA’s perceived disagreements with
the current presidential administration or BLM over
land-management policy bears little relation to how
the United States will defend title to the roads

App. 55
themselves.5 In some cases—such as an APA suit
against federal land-management policy, in which the
government has multiple objectives and must balance
a variety of public and private interests—a change of
presidential administration can constitute a change in
circumstance justifying reconsideration of adequate
representation. See W. Energy All. v. Zinke, 877 F.3d
1157, 1169 (10th Cir. 2017). Indeed, all the cases the
majority cites are APA challenges of this sort. But a
change in presidential administration is not the sort of
relevant change that affects adjudication of title in a
Quiet Title Act action. Our decision in Zinke drew this
very distinction: “[T]he only issue in [Kane County is]
whether the defendant federal government or the
plaintiff county [holds] title to rights of way over
federal land, and [SUWA does] not claim to have
unique knowledge or experience that would assist the
BLM in defense of its title.” Id.
With respect to the second circumstance, we
recognized in Kane County I that SUWA waived the
5

Insofar as the administration’s land-management policies
have excluded parts of the relevant roads from the Grand
Staircase-Escalante National Monument, those policies can be
and have been challenged through the APA See, e.g., City of
Carmel-By-The-Sea v. U.S. Dep’t of Transp., 123 F.3d 1142, 1166
(9th Cir. 1997) (holding executive orders on land-use subject to
judicial review under the APA); Complaint for Declaratory and
Injunctive Relief, Grand Staircase Escalante Partners v. Trump,
No. 17–2591 (D.D.C. Dec. 4, 2017), 2017 WL 6033875. Such
policies cannot properly be challenged through intervention in a
Quiet Title Act action because reversing the United States’
decision to relinquish parts of the Monument is not a possible
remedy.

App. 56
argument that it might disagree with the United
States about the length or width of Kane County’s
rights-of-way. 597 F.3d at 1135. Even if we accepted
that argument, as the majority does, SUWA presents
no sufficient reason to doubt the United States will
continue to defend its title, apart from speculation
about settlement negotiations between the parties
that it would still be powerless to stop as an intervenor.
The only issue on remand turns exclusively “on the
historic use of these roads by the public for the period
required under Utah law prior to 1976.” Kane Cty., No.
2:08-CV-315, 2009 WL 959804, at *3. And that is not
an issue on which SUWA has “special expertise,
experience, or knowledge” that “would not be available
to the United States” in defending the scope of its title.
Id. Nor does SUWA provide persuasive argument that
the interests of the United States and SUWA, which
are presumed to align, diverge on answering that
historically bound question.
SUWA’s speculation that the United States will be
less than zealous to defend its title cannot explain (1)
why the United States has not settled this case two
years into the new presidential administration, (2)
why the parties did not request further stays to
continue negotiation after the stay expired last year, or
(3) why extensive discovery and depositions have
continued in other pending road disputes between the
parties. Nor can the majority opinion explain these
present circumstances.
In my view, the district court did not abuse its
discretion in concluding that SUWA’s position was

App. 57
based on speculation and “unsupported by any
evidence other than statements by the parties [in
2017] that settlement might be possible.” Kane Cty. v.
United States, No. 2:08-CV-315-CW, 2018 WL 3999575,
at *3 (D. Utah Aug. 21, 2018).
****
Because I believe SUWA lacks standing to
intervene and because the district court did not abuse
its discretion in denying SUWA’s motion to intervene
under Rule 24(a), I respectfully DISSENT.

App. 58
2018 WL 3999575
Only the Westlaw citation is currently available.
United States District Court, D. Utah.
KANE COUNTY, UTAH; and State of Utah, Plaintiff,
v.
UNITED STATES OF AMERICA, Defendant.
Case No. 2:08-cv-315-CW
|
Signed 08/21/2018
Attorneys and Law Firms
Chelsea J. Davis, Shawn T. Welch, Holland & Hart LLP,
Elizabeth B. Harris, Kathy A. F. Davis, Utah Attorney
Generals Office, Tamara L. Kapaloski, Dorsey & Whitney LLP, Salt Lake City, UT, Ryan R. Jibson, Browning,
Morgan, UT, William L. Bernard, Pueblo, CO, for
Plaintiff.
Anna K. Stimmel, US Department of Justice, San
Francisco, CA, John K. Mangum, US Attorney’s Office,
Salt Lake City, UT, Romney S. Philpott, Pro Hac Vice,
US Department of Justice, Denver, CO, Joanna K.
Brinkman, Pro Hac Vice, Joseph Hosu Kim, US Department of Justice, Washington, DC, for Defendant.
MEMORANDUM DECISION & ORDER
Clark Waddoups, United States District Judge
Before the court is movant Southern Utah Wilderness Alliance’s Motion to Intervene (ECF No. 298) and
Motion to Supplement Factual Record in Pending
Motion to Intervene as Defendants (ECF No. 320). The

App. 59
Motion to Intervene is fully briefed, the time to respond to the Motion to Supplement has passed without
response, and the parties have not requested oral
argument. Kane County, the State of Utah, and the
United States oppose intervention by SUWA. Having
considered the briefs, the Motion to Supplement, and
otherwise being fully informed, the court DENIES
SUWA’s Motion to Intervene for the reasons set forth
herein.
Background
SUWA first moved to intervene as a matter of
right in this action on November 26, 2008. (ECF No.
28.) After considering full briefing and oral argument,
the court denied that motion because “SUWA ha[d] not
established the element of having an impaired interest
in the litigation” and because SUWA “ha[d] failed to
show that its interest in this case are not adequately
represented by the United States.” (Intervention Order
4, ECF No. 71.) SUWA sought interlocutory appeal of
that decision (ECF No. 75), and the Tenth Circuit
affirmed this court’s denial of SUWA’s motion (Mandate of USCA, ECF No. 118). Without considering
“whether SUWA has an interest relating to the quiet
title claims alleged in Kane County’s first amended
complaint that may, as a practical matter, be impaired
or impeded by the disposition of the litigation,” the
Tenth Circuit concluded that “even assuming SUWA
has an interest, . . . SUWA has failed to establish that
the United States may not adequately represent
SUWA’s interest.” Kane County v. United States, 597

App. 60
F.3d 1129, 1133 (10th Cir. 2010). Therefore, the court
concluded SUWA was not entitled to intervene as of
right and affirmed this court. Id. at 1135-36.
After the Tenth Circuit ruled on intervention, this
court held a thirteen-day bench trial and issued
findings of fact and conclusions of law. (Final Order,
ECF No. 247.) This court quieted title to some, but not
all, of the roads Kane County had alleged. (Id.) The
parties appealed to the Tenth Circuit, which affirmed
in part and reversed in part and remanded for this
court to reconsider the scope of three roads. Kane
County v. United States of America, 772 F.3d 1205
(10th Cir. 2014). This court then ordered the parties to
file a status report informing the court whether further
fact finding is needed. (Status Order, ECF No. 293.)
The parties instead sought to stay the court’s order
because they were working toward resolution. (Motion
for Stay, ECF No. 294.) The parties eventually filed
separate status reports notifying the court that further
fact finding is necessary. (Kane’s Supplemental Brief
and Request for Further Findings of Fact and Conclusions of Law, ECF No. 315; United States of
America’s Response, ECF No. 318.) No one has since
filed anything with the court suggesting settlement is
likely. While the parties were discussing settlement
and filing their status reports, SUWA filed the instant
motions.
SUWA now argues it is entitled to intervene as a
matter of right because “the nature of this proceeding,
as well as the United States’ litigation position, have
both changed” since the previous intervention

App. 61
decisions by this court and the Tenth Circuit. (Motion
to Intervene 2, ECF No. 298.) Specifically, SUWA
contends “[t]he landscape has . . . changed significantly
since [it] last moved to intervene,” as a result of “the
recent change in administration and the fact that the
United States has entered into active settlement
discussions in this case” without including SUWA in
those discussions. (Motion to Intervene 1, ECF No. 22.)
SUWA also argues that the court should reconsider its
conclusion that SUWA has no impaired interest. (Id. at
2.) Each of the three parties to this litigation object to
SUWA’s Motion to Intervene.
Analysis
“Rule 24(a)(2) provides for intervention as of right
by anyone who in a timely motion ‘claims an interest
relating to the property or transaction that is the
subject of the action, and is so situated that disposing
of the action may as a practical matter impair or
impede the movant’s ability to protect its interest,
unless existing parties adequately represent that
interest.’ ” WildEarth Guardians v. U.S. Forest Serv.,
573 F.3d 992, 995 (10th Cir. 2009) (quoting Fed. R. Civ.
P. 24(a)(2)). Assuming without deciding that SUWA
timely filed its Motion to Intervene, the court denies
the Motion because SUWA has not presented
circumstances under which this court, exercising its
discretion, is compelled to revisit its prior ruling and
disregard the ruling of the Tenth Circuit.

App. 62
The district court has “general discretionary authority to review and revise [its] interlocutory rulings
prior to entry of final judgment.” Wagoner v. Wagoner,
938 F.2d 1120 n. (10th Cir. 1991); see also Fed. R. Civ.
P. 54(b). But because of the need for judicial economy,
the court need not reconsider every interlocutory
decision a party sees fit to challenge. Typically,
“ ‘[g]rounds warranting a motion to reconsider include
(1) an intervening change in the controlling law, (2)
new evidence previously unavailable, and (3) the need
to correct clear error or prevent manifest injustice.’ ”
Anderson Living Trust v. WPX Energy Prod., LLC, 308
F.R.D. 410, 427 (D. N.M. 2015) (quoting Servants of
Paraclete v. Does, 204 F.3d 1005, 1012 (10th Cir. 2000)).
And of course, barring a showing of an exception to the
mandate rule, this court will follow the direction of the
Tenth Circuit. See Huffman v. Saul Holdings Ltd.
P’ship, 262 F.3d 1128, 1132-33 (10th Cir. 2001). SUWA’s
Motion to Intervene does not directly speak to this
court’s authority or discretion to revisit previously
decided matters. But in response to Kane County’s
opposition, which emphasizes SUWA’s repeated failed
efforts to intervene, SUWA points this court to San
Juan County in which the court contemplated that an
initial decision denying intervention “does not forever
foreclose . . . intervention” and invited SUWA, as the
would-be intervenor, to readdress the issue with the
court “[i]f developments after the original application
for intervention undermine the presumption that the
Federal Defendants will adequately represent [their]
interests.” 503 F.3d 1163, 1207 (10th Cir. 2007) (en
banc). (SUWA’s Reply 8, ECF No. 316.) Regardless,

App. 63
SUWA has not shown a change in circumstances that
would alter this court’s denial of intervention.
SUWA alleges that intervention is now proper
because it has an interest that could be impaired and
because the United States no longer represents its
interests. First, SUWA alleges intervention is now
proper despite the court’s prior order because under
San Juan County SUWA has an interest that may be
impaired by this litigation and because SUWA’s
interest in preserving the wilderness characteristic of
the lands surrounding the rights of way could be
impaired by “[a]ny scope settlement that is not tightly
correlated with reliable evidence as to pre-1976 uses
and widths.” (Motion to Intervene 8-10, ECF No. 298.)
Whether an interest that would satisfy the requirements of Rule 24(a)(2) and (3) exists is a fact specific
inquiry, see San Juan County, 503 F.3d at 1199, and
this court has previously distinguished the facts of the
relevant roads in Kane County from the road at issue
in San Juan County. On appeal, the Tenth Circuit did
not reach the impaired interest issue and instead
“[p]roceed[ed] directly to” the fourth element of Rule
24(a) and “conclude[d] that, even assuming SUWA has
an interest in the quiet title proceedings at issue” that
SUWA should not be permitted to intervene. Kane
County, 597 F.3d at 1133. This is hardly a decision on
the merits that should prompt this court to revisit its
prior decision.
And SUWA’s argument that the issue of scope is
distinct from the issue of title is unavailing. While a
minority of the en banc court in San Juan County

App. 64
indicated that, under the circumstances of that case,
scope may be viewed different than title for purposes
of the impaired interest analysis, the Tenth Circuit
made clear in its intervention decision in this case that
“San Juan County does not mandate a particular
outcome in this case.” 597 F.3d at 1134. In fact, scope
is inherent in the quiet title process because as a
practical matter the court cannot quiet title to an
undefined property. As such, this court decided issues
of scope in its quiet title decision. Therefore, where the
issues before the court and the applicable law are the
same as they were when the initial decision was
rendered, the court declines to revisit the question of
impaired interest. SUWA has not met its burden and
for this reason is not entitled to intervention as of
right.
Second, SUWA claims that the United States no
longer adequately represents its interests because the
issue in this litigation is no longer a binary question of
title but a multifaceted question of scope and because
the new administration has expressed willingness to
engage in settlement negotiations in this and other
R.S. 2477 cases. The court is unpersuaded by these
arguments. As discussed, scope is inherent in the issue
of quiet title and San Juan County does not mandate
the outcome of this case. Further, while scope can be
defined in multiple ways, there is no reason on this
record to believe the United States would advocate for
anything other than retention of the maximum
amount of property. In Western Energy Alliance v.
Zinke, 877 F.3d 1157 (10th Cir. 2017), upon which

App. 65
SUWA relies for the proposition that a change in
administration may justify intervention, the court
determined the United States did not represent the
interests of the environmental groups seeking to
intervene. But the Western Energy Alliance court
distinguished the Kane County intervention decision
from cases in which “the government has multiple
objectives.” Id. at 1169. Whereas the cases Western
Energy Alliance relies on involve government regulations issued for resource management purposes where
the relevant agency was acting under a multiple-use
mandate, id., here the question is title to real property
and the scope of that property for purposes of quieting
title. Unlike in Western Energy Alliance, SUWA has not
set forth any actual competing interests or motivations
that would cause the United States to take a position
other than advocating for the narrowest possible right
of way.
And the allegation that the United States has
softened its litigation position as a result of the change
in administration is unsupported by any evidence
other than statements by the parties that settlement
may be possible. Where the terms of any proposed
settlement are unknown, the mere possibility of
settlement cannot support a conclusion that one of the
parties has abdicated its positions.1 And even though
1

The court also concludes that the possibility of settlement
cannot alone be a basis for permitting intervention because the
Tenth Circuit has made clear an intervenor cannot veto a
settlement agreement reached by the parties. San Juan County,
503 F.3d at 1189 (“In particular, we should mention again that an
intervenor has no power to veto a settlement by other parties.”).

App. 66
there may have been efforts to settle this dispute, the
record does not support SUWA’s claims. Despite the
parties’ previous statements that a settlement may be
possible, they later filed status reports in which they
represented that further fact finding is necessary for
the resolution of the matter. (Kane’s Supplemental
Brief and Request for Further Findings of Fact and
Conclusions of Law, ECF No. 315; United States of
America’s Response, ECF No. 318.) This indicates to
the court that a settlement is not as likely as SUWA
suggests. Further, SUWA references the other R.S.
2477 litigation as evidence of possible settlement, but
in those cases the United States continues to actively
litigate and is currently engaged in the discovery
process. Without a showing that the United States has
an incentive to advocate for less than its full rights to
the real property at issue or a showing that, regardless
of incentives, it has abandoned that position, the court
cannot on speculation alone conclude that the United
States is no longer adequately representing SUWA’s
interests in limiting each right of way. Given the
presumption that the United States will represent the
good of the public, the court cannot conclude on this
record that the United States will do anything other
than continue to fully litigate this action.
For these reasons, the court is not persuaded that
there has been a change in circumstances justifying a
Therefore, to conclude that the possibility of settlement requires
that SUWA should be permitted to participate in litigation is
unworkable because, regardless of its intervention status, SUWA
would have no recourse to avoid the settlement.

App. 67
change in the court’s prior intervention decision.
Therefore, SUWA’s Motion to Intervene is DENIED.

App. 68
United States District Court,
D. Utah,
Central Division.
KANE COUNTY, UTAH,
a Utah political subdivision, Plaintiff,
v.
UNITED STATES of America, Defendant.
No. 2:08-CV-315.
April 6, 2009.
Elizabeth B. Harris, Shawn T. Welch, Kendra L. Shirey,
Holme Roberts & Owen LLP, Salt Lake City, UT,
William L. Bernard, Kanab, UT, for Plaintiff.
John K. Mangum, U.S. Attorney’s Office, Salt Lake
City, UT, Romney S. Philpott, U.S. Department of
Justice (ENR-663) Environmental & Natural Resources
Division, Washington, DC, for Defendant.
MEMORANDUM DECISION AND ORDER
CLARK WADDOUPS, District Judge.
Kane County, Utah, filed this action against the
United States under the Quiet Title Act, 28 U.S.C.
§ 2409A, seeking to quiet title to fifteen roads and
rights-of-way in Kane County, Utah. Kane County
claims that under 43 U.S.C. § 932, the roads at issue
were established as public rights-of-way prior to the
Act being repealed in 1976. Such roads are commonly
referred to as R.S. 2477 roads. The Southern Utah
Wilderness Alliance, the Wilderness Society and the
Sierra Club (collectively “SUWA”) have moved to
intervene in the action both as of right under Rule

App. 69
24(a)(2) of the Federal Rules of Civil Procedure and, in
the alternative, for permissive intervention under Rule
24(b). SUWA argues that it is seeking to intervene to
defend claims set forth in the Complaint by Kane
County against the United States. Both Kane County
and the United States oppose the intervention by
SUWA.
INTERVENTION AS A MATTER OF RIGHT
Under Rule 24(a)(2), an applicant for intervention
should be permitted to intervene if the following
elements are satisfied:
(1) the application is “timely”; (2) “the applicant claims an interest relating to the property or transaction which is the subject of the
action”; (3) the applicant’s interest “may as a
practical matter” be “impair[ed] or impede[d]”;
and (4) “the applicant’s interest is [not] adequately represented by existing parties.”1
Of the elements required to establish intervention,
Kane County and the United States raise only the
issues of whether SUWA, as a practical matter, has an
interest that may be impaired or impeded and whether
SUWA’s interest is adequately represented by the
existing parties. The issues raised in this motion have
previously been addressed in similar or nearly similar

1

Coalition of Arizona/New Mexico Counties for Stable Economic Growth v. Dep’t of the Interior, 100 F.3d 837, 840 (10th Cir.
1996); Fed.R.Civ.P. 24(a)(2).

App. 70
cases, both in this court and in the Tenth Circuit.2 The
factors to be considered in the analysis and the
applicable principles have been set forth extensively in
those cases, particularly in San Juan County, and will
not be repeated here.
In this case, as it did in the previous cases, SUWA
argues that it has an interest that may be impaired by
the pending litigation because of its long and extensive
role in protecting wilderness lands in Southern Utah,
including Kane County. SUWA argues that even
though the only issue in this litigation is who holds
title to the roads at issue, the wilderness characteristics of the area and how the lands adjacent to the
roads are managed may be affected by who holds title.
It argues that Kane County has been insensitive to
protecting the wilderness characteristics of the lands
and SUWA should therefore be allowed to intervene on
behalf of its constituents to argue vigorously that title
should be held by the United States. In San Juan
County, seven of the thirteen judges addressing the
“interest” issue found that SUWA, in that case, had
sufficiently established an interest in the litigation to
meet that element of Rule 24(a)(2).3 SUWA argues that

2

See, e.g., San Juan County v. United States, 503 F.3d 1163
(10th Cir. 2007) (en banc) (hereinafter “San Juan County”); Utah
(Emery County) v. United States, No. 2:05-cv-540, 2008 WL
4571787 (D.Utah Oct. 8, 2008) (hereinafter “Emery County”);
Utah (Juab County) v. United States, No. 2:05-cv-714, 2008 WL
4170017 (D.Utah Sept. 3, 2008) (hereinafter “Juab County”).
3
San Juan County, 503 F.3d at 1199-1200.

App. 71
the same facts that led to this conclusion in San Juan
County compel the same finding in this case.
The United States and Kane County argue to the
contrary that the determination of whether the
applicant has a sufficient interest to intervene is
highly fact specific. They argue that, unlike the roads
at issue in San Juan County, the roads at issue here
have been open to the public for many years and thus,
compel a different conclusion as to whether SUWA has
a sufficiently impaired interest to meet the requirements of the rule. SUWA counters that while twelve of
the roads have been open to the public for many years,
three of the roads are closed and a finding of title in
favor of Kane County would risk these roads being
opened to the public. SUWA argues that, at least as to
these three roads, under San Juan County, it has met
the requirement to show an impaired interest.
As is evident from the Complaint, the only issue in
this case is whether Kane County can establish that it
holds title to the roads at issue. How the lands adjacent
to the roads will be managed and whether the roads
themselves will be open to the public once title is
determined are not issues that are relevant to the
determination of the quiet title action. In this case, it
is evident that SUWA does not have a “legal interest”
in the usual understanding of that word in a title
context. While SUWA obviously has an interest in the
sense that it cares deeply about the outcome of the
decision, it does not claim title to the roads at issue.
This conclusion was evident by SUWA’s concession at
oral argument that, were the United States and Kane

App. 72
County to resolve all of the title issues as to the roads
without SUWA’s consent or participation, SUWA
would have no right to continue with the action and
the action would be dismissed.
Based on the specific facts in this case and the
differences between the issues raised by Kane County
and those in San Juan County, the court finds that
SUWA has not established the element of having an
impaired interest in the litigation. The issues raised in
this case do not include the same factual underpinnings of continuing controversy over roads into
areas that have been protected by the National Park
Service as did the roads at issue in San Juan County.
Nevertheless, were the court to conclude that San
Juan County requires a different conclusion, SUWA
would still not meet the requirements for intervention
because it has failed to show that its interests in this
case are not adequately represented by the United
States.
ADEQUATE REPRESENTATION
SUWA argues that the United States will not
adequately represent its interests in the quiet title
action. SUWA supports this argument by setting forth
a history of adversarial relationships between SUWA
and the Bureau of Land Management (“BLM”), and
facts that it indicates support a conclusion that the
United States has been unwilling to defend vigorously
SUWA’s interests. SUWA has presented facts from
which one could conclude that it has, on occasion,

App. 73
disagreed with the BLM on how the lands adjacent to
the roads at issue should be managed. It also has
presented facts to show that SUWA takes a more
aggressive stance to preserving the wilderness characteristics of these lands than it contends has been taken
by the BLM in the management of the lands adjacent
to the roads at issue. Nevertheless, the management of
the lands has no bearing on the issue raised by the
Complaint.
The only issue to be resolved, as SUWA conceded
at oral argument, is whether the United States or
Kane County holds title. Whether Kane County can
establish the requirements to show that it holds title
to the roads based on R.S. 2477 will turn entirely on
the historic use of these roads by the public for the
period required under Utah law prior to 1976. In
neither its briefing nor at a oral argument was SUWA
able to proffer any evidence to which it would have
access about the historical use of the roads that is not
available to the United States. Moreover, SUWA does
not present evidence that it has any special expertise,
experience or knowledge with respect to the historic
use of the roads that would not be available to the
United States.
Indeed, the primary focus of SUWA’s briefing in
support of its motion is its long history of advocating
to preserve the wilderness characteristics of the lands
and the risks that opening the roads to the public may
have on preserving such wilderness areas. None of
these facts is relevant to the determination of whether
Kane County holds title. In Emery County, the court

App. 74
reached the same conclusion.4 In San Juan County, the
court reminded that “nothing we have said would
contravene the holding that Rule 24(a)(2) does not
require intervention as of right for the purpose of
presenting only irrelevant argument or evidence.”5 The
only arguments that SUWA appears to be prepared to
make in this case that would not be made by the
United States are those relating to the management of
the land, which would be irrelevant and not admissible
in evidence.
The United States argues that it has been and will
be vigorous in defending its claim to legitimate title to
the roads. The record does not compel a different
conclusion. Absent evidence showing that the United
States will not vigorously defend this position, there is
no basis to allow intervention by SUWA.
PERMISSIVE INTERVENTION
SUWA argues that even if the court concludes that
it does not meet the requirements for intervention as
a matter of right, it should be allowed to intervene
permissively under Rule 24(b). Rule 24(b) provides
that the court may permit intervention to an applicant
who
(A) is given a conditional right to intervene by
a federal statute; or

4
5

Emery County, 2008 WL 4571787, at *9.
San Juan County, 503 F.3d at 1203.

App. 75
(B) has a claim or defense that shares with
the main action a common question of law or
fact.6
SUWA does not claim that it has a conditional
right to intervene pursuant to any federal statute.
SUWA does argue, however, that “conservation groups
seeking to intervene on behalf of the government
[should be allowed to intervene where they] assert
defenses that are ‘directly responsive to the claims . . .
asserted by plaintiffs.’ ”7 SUWA maintains that it does
intend to assert claims that are common with those
that are at the center of this action.
To support its proposition, SUWA cites to Kootenai
Tribe. In that case, however, the court found that the
government had declined to defend fully and that the
intervenors would assist in a resolution of the issues
which would impact varied interests. Under those
circumstances, the court found it was not an abuse of
discretion to allow intervention. In this case, the
United States has not declined to defend. Instead, it
asserts its intent to fully defend.
Further, Kane County and the United States
respond that SUWA’s intervention in the case will not
add any additional insight to the arguments that will
be presented by the parties. As noted, the only issue in
this case is whether Kane County or the United States
6

Fed.R.Civ.P. 24(b).
SUWA’s Memo. in Supp. of Mot. to Intervene, at 32 (quoting
Kootenai Tribe of Idaho v. Veneman, 313 F.3d 1094, 1110 (9th Cir.
2002)).
7

App. 76
owns title to the fifteen roads at issue. In Emery
County, the court concluded: “Resolution of this issue
will not involve any ‘claims’ or ‘defenses’ in common
with SUWA’s asserted conservation interest. Rather, it
is limited to the question of title, an issue the court has
already found is adequately represented by the United
States.”8 The court finds that the conclusion reached by
the court in Emery County is equally applicable to this
case. There is nothing in the briefing nor the arguments to suggest that SUWA would offer any additional defenses or claims relevant to the issue to be
decided that would not already be fully and completely
advocated by the United States. Indeed, SUWA does
not share any claim or defense in this action that is
different from any other member of the public who
cares deeply about the outcome of this litigation. To
allow SUWA to intervene in this action under Rule
24(b) would be an invitation to any member of the
public who holds strong views about the outcome to
seek to intervene. The court finds that intervention is
not appropriate under these circumstances.
The motion is DENIED.9

8
9

Emery County, 2008 WL 4571787, at 9.
Docket No. 28.

App. 77
United States Court of Appeals,
Tenth Circuit.
KANE COUNTY, UTAH, a political subdivision,
Plaintiff-Appellee,
v.
UNITED STATES of America,
Defendant-Appellee.
Southern Utah Wilderness Alliance,
Wilderness Society, Sierra Club, Movants-Appellants.
No. 09-4087,
March 8, 2010.
Heidi J. McIntosh, Southern Utah Wilderness Alliance,
Salt Lake City, UT (Steven H.M. Bloch, Southern Utah
Wilderness Alliance, Salt Lake City, UT; Edward B. Zukoski and Andrea Zaccardi, Earthjustice, Denver, CO,
with her on the briefs), for Movants to Intervene-Appellants Southern Utah Wilderness Alliance, Wilderness Society, and Sierra Club.
Shawn T. Welch (Kendra L. Shirey and Janna B. Custer
with him on the brief ), of Holme, Roberts & Owen LLP,
Salt Lake City, UT, for Plaintiff-Appellee Kane County,
Utah.
Aaron P. Avila, Attorney, Environment & Natural Resources Division, United States Department of Justice,
Washington, DC (John C. Cruden, Acting Assistant Attorney General; Brett L. Tolman, United States Attorney; John K. Mangum, Assistant United States
Attorney; James E. Karkut, Office of the Regional Solicitor Department of the Interior, Salt Lake City, UT;
Romney S. Philpott, Attorney, Environment & Natural

App. 78
Resources Division, United States Department of Justice, Washington, DC, with him on the brief ), for Defendant-Appellee United States.
Before KELLY, EBEL, and BRISCOE, Circuit Judges.
BRISCOE, Circuit Judge.
Southern Utah Wilderness Alliance, The Wilderness Society and the Sierra Club (collectively SUWA)
appeal from the district court’s denial of their motion
to intervene in this action brought by Kane County,
Utah, to quiet title to several purported rights-of-way
across federal public lands within Kane County. Exercising jurisdiction pursuant to 28 U.S.C. § 1291, we affirm.
I
Kane County encompasses approximately 1.6 million acres of federal public land, nearly 1.3 million
acres of which lie within the Grand StaircaseEscalante National Monument (Monument). The nonMonument federal public land that lies within Kane
County includes wilderness study areas, as well as portions of land that SUWA is advocating for protection
under its long-proposed America’s Red Rock Wilderness Act (a piece of legislation that has been repeatedly
introduced, but never adopted by Congress). Historically, Kane County officials have maintained public
transportation routes that pass through or abut these
areas of federal public land.

App. 79
On April 25, 2008, Kane County initiated this action by filing a complaint against the United States under the Quiet Title Act, 28 U.S.C. § 2409a, seeking to
quiet title to two roads, Mill Creek Road and Bald
Knoll Road, both of which are located in western Kane
County, approximately 20 miles northeast of Kanab,
Utah, and cross portions of federal public land.1 The
complaint alleged that under a Reconstruction-era law
known as Revised Statute 2477 (R.S. 2477)2, Kane
County had “accepted R.S. 2477 rights-of-way for”
these two roads “on public lands not reserved for public
uses.” App. at 19. More specifically, the complaint alleged that Kane County had designated both roads “as
public highways and [had] expend[ed] public funds to
construct and maintain these roads prior to [the] October 21, 1976” repeal of R.S. 2477. Id. In addition, the
complaint alleged that both roads had been “continuous[ly] use[d] as public thoroughfares for a period in
excess of ten years prior” to the repeal of R.S. 2477. Id.
at 20. The first claim alleged in the complaint sought
1

The two roads actually encompass five segments of Kane
County routes: Mill Creek Road includes segments of three different Kane County route numbers (K4400, K4410, and K4405) and
Bald Knoll Road includes segments of two different Kane County
route numbers (K3930A and K3935).
2
“R.S. 2477 was repealed by the Federal Land Policy and
Management Act of 1976, Pub.L. No. 94-579, § 706(a), 90 Stat.
2743, 2793. But that Act explicitly protect[ed] R.S. 2477 rights-ofway in existence at the time of its enactment. Because such a
right-of-way could have come into existence without any judicial
or other governmental declaration, much litigation continues over
whether rights-of-way were in fact created on public land.” San
Juan County v. United States, 503 F.3d 1163, 1168 (10th
Cir.2007) (internal quotation marks and citations omitted).

App. 80
to quiet title to Kane County’s purported “R.S. 2477
public highway right-of-way for the Mill Creek [R]oad,”
“includ[ing] a right-of-way width of 66 feet. . . .” Id. at
35. The second claim alleged in the complaint sought,
in similar fashion, to quiet title to Kane County’s purported R.S. 2477 public highway right-of-way for Bald
Knoll Road, “includ[ing] a right-of-way width of 66
feet. . . .” Id. at 36.
On July 14, 2008, the United States filed an answer asserting six specific defenses to the two claims
alleged in Kane County’s complaint: (1) the district
court “lack[ed] jurisdiction over the subject matter of
th[e] action due to [Kane County]’s failure to satisfy
the ‘particularity’ requirement of the Quiet Title Act
and thereby invoke a waiver of the United States’ sovereign immunity under the Act,” id. at 61; (2) the district court “lack[ed] jurisdiction over the subject
matter of th[e] action due to [Kane County]’s failure to
allege facts sufficient to show that it c[ould] satisfy the
statute of limitations set forth in the Quiet Title Act,”
id.; (3) the district court “lack[ed] jurisdiction over the
subject matter of th[e] action due to [Kane County]’s
failure to allege a justiciable case or controversy between the parties,” id.; (4) Kane County “failed to state
a claim upon which relief c [ould] be granted,” id.; (5)
Kane County “failed to join indispensable parties under Rule 19 of the Federal Rules of Civil Procedure
with respect to the claimed rights-of-way that cross[ ]
private land,” id. at 62; and (6) Kane County’s “claims
are barred by the statute of limitations in the Quiet
Title Act.” Id.

App. 81
On September 24, 2008, Kane County moved for
leave to file an amended complaint. Attached to the
motion was a proposed amended complaint asserting
seven additional claims to quiet title to ten additional
roads: Skutumpah, Swallow Park/Park Wash, North
Swag and Nipple Lake Roads in western Kane County;
and Sand Dune, Hancock, and four Cave Lakes Roads
in southwestern Kane County. Id. at 98-129. The
United States did not oppose the motion. On October
30, 2008, the district court granted Kane County’s motion. Id. at 143. Kane County’s amended complaint was
subsequently filed on November 10, 2008.
On November 26, 2008, SUWA moved for leave to
intervene as of right “as a defendant in th[e] action
pursuant to Fed.R.Civ.P. 24(a)(2).” Id. at 210. “In the
alternative, SUWA request[ed] leave to permissively
intervene pursuant to Fed.R.Civ.P. 24(b).” Id. Both
Kane County and the United States opposed SUWA’s
motion to intervene.
On April 6, 2009, the district court issued a memorandum decision and order denying SUWA’s motion
to intervene. After outlining the requirements for intervention as of right under Rule 24(a)(2), the district
court noted that Kane County and the United States
disputed “only the issues of whether SUWA, as a practical matter, ha[d] an interest that m[ight] be impaired
or impeded and whether SUWA’s interest [wa]s adequately represented by the existing parties.” Id. at 772.
With respect to the first of these issues, the district
court concluded:

App. 82
As is evident from the Complaint, the
only issue in this case is whether Kane
County can establish that it holds title to the
roads at issue. How the lands adjacent to the
roads will be managed and whether the roads
themselves will be open to the public once title
is determined are not issues that are relevant
to the determination of the quiet title action.
In this case, it is evident that SUWA does not
have a “legal interest” in the usual understanding of that word in a title context. While
SUWA obviously has an interest in the sense
that it cares deeply about the outcome of the
decision, it does not claim title to the roads at
issue. This conclusion was evident by SUWA’s
concession at oral argument that, were the
United States and Kane County to resolve all
of the title issues as to the roads without
SUWA’s consent or participation, SUWA
would have no right to continue with the action and the action would be dismissed.
Based on the specific facts in this case
and the differences between the issues raised
by Kane County and those in San Juan
County, the court finds that SUWA has not established the element of having an impaired
interest in the litigation. The issues raised in
this case do not include the same factual underpinnings of continuing controversy over
roads into areas that have been protected by
the National Park Service as did the roads at
issue in San Juan County.
Id. at 773-74 (emphasis added). The district court
further concluded that SUWA had “failed to show that

App. 83
its interests in th[e] case [we]re not adequately represented by the United States,” id. at 774:
The only issue to be resolved, as SUWA
conceded at oral argument, is whether the
United States or Kane County holds title.
Whether Kane County can establish the requirements to show that it holds title to the
roads based on R.S. 2477 will turn entirely on
the historic use of these roads by the public
for the period required under Utah law prior
to 1976. In neither its briefing nor at a[sic]
oral argument was SUWA able to proffer any
evidence to which it would have access about
the historical use of the roads that is not available to the United States. Moreover, SUWA
does not present evidence that it has any special expertise, experience or knowledge with
respect to the historic use of the roads that
would not be available to the United States.
Indeed, the primary focus of SUWA’s
briefing in support of its motion is its long history of advocating to preserve the wilderness
characteristics of the lands and the risks that
opening the roads to the public may have on
preserving such wilderness areas. None of
these facts is relevant to the determination of
whether Kane County holds title. * * * In San
Juan County, the court reminded that “nothing we have said would contravene the holding that Rule 24(a)(2) does not require
intervention as of right for the purpose of presenting only irrelevant argument or evidence.” The only arguments that SUWA
appears to be prepared to make in this case

App. 84
would not be made by the United States are
those relating to the management of the land,
which would be irrelevant and not admissible
in evidence.
The United States argues that it has been
and will be vigorous in defending its claim to
legitimate title to the roads. The record does
not compel a different conclusion. Absent evidence showing that the United States will not
vigorously defend this position, there is no basis to allow intervention by SUWA.
Id. at 775-76 (emphasis added). Lastly, the district
court rejected SUWA’s request for permissive intervention, concluding “there [wa]s nothing in the briefing
nor the arguments to suggest that SUWA would offer
any additional defenses or claims relevant to the issues
to be decided that would not already be fully and completely advocated by the United States,” and that
“SUWA d[id] not share any claim or defense . . . that
[wa]s different from any other member of the public
who cares deeply about the outcome of th[e] litigation.”
Id. at 777.
II
In this appeal, SUWA challenges both the district
court’s denial of its motion to intervene as of right under Rule 24(a)(2), and the district court’s denial of its
motion for permissive intervention under Rule 24(b).
We review de novo a district court’s ruling on a motion
to intervene as of right under Federal Rule of Civil Procedure 24(a)(2). Coal. of Ariz./N.M. Counties For Stable

App. 85
Econ. Growth v. Dep’t of the Interior, 100 F.3d 837, 840
(10th Cir.1996). We review rulings on permissive intervention under Rule 24(b) for abuse of discretion. Alameda Water & Sanitation Dist. v. Browner, 9 F.3d 88,
89-90 (10th Cir.1993).
I. Intervention as of right
“Rule 24(a)(2) provides for intervention as of right
by anyone who in a timely motion ‘claims an interest
relating to the property or transaction that is the subject of the action, and is so situated that disposing of
the action may as a practical matter impair or impede
the movant’s ability to protect its interest, unless existing parties adequately represent that interest.’ ”
WildEarth Guardians v. U.S. Forest Serv., 573 F.3d 992,
995 (10th Cir.2009) (quoting Fed.R.Civ.P. 24(a)(2)). It is
undisputed in this case that SUWA timely moved to
intervene. Thus, the propriety of SUWA’s motion to intervene as of right hinges on: (1) whether SUWA has
an interest relating to the quiet title claims alleged in
Kane County’s first amended complaint that may, as a
practical matter, be impaired or impeded by the disposition of the litigation; and (2) whether the United
States, in defending against Kane County’s quiet title
claims, will adequately represent SUWA’s interest.
Proceeding directly to the latter of these inquiries, we
conclude that, even assuming SUWA has an interest in
the quiet title proceedings at issue, SUWA has failed
to establish that the United States may not adequately
represent SUWA’s interest. Consequently, we agree

App. 86
with the district court that SUWA was not entitled to
intervene as of right under Rule 24(a)(2).
a) Adequacy of the United States’ representation of
SUWA’s interests
“Even if an applicant satisfies the other requirements of Rule 24(a)(2), it is not entitled to intervene if
its ‘interest is adequately represented by existing parties.’ ” San Juan County, 503 F.3d at 1203 (quoting
Fed.R.Civ.P. 24(a)(2)).
In San Juan County, this court, sitting en banc,
was presented with a nearly identical “adequacy of
representation” question, but was unable to reach a
consensus in resolving that question. To begin with,
only seven of the thirteen members of the en banc court
concluded that SUWA had a legally protectable interest in the quiet title action, and thus only those seven
members reached the merits of the “adequacy of representation” question.3 The lead opinion in San Juan
County concluded, in a section garnering the votes of
only three of those seven members, that a presumption
of adequate representation applied because the government and SUWA shared the “single objective” of defending exclusive title to the roads at issue. Id. at 1204
3

The remaining six members of the en banc court concluded
that intervention by SUWA was improper both because SUWA
lacked a legally protectable interest in the quiet title action, and
because, in any event, intervention was barred by sovereign immunity. Those six judges, together with the three judges who
joined the lead opinion, comprised a majority that effectively affirmed the district court’s denial of intervention.

App. 87
(opinion of Hartz, J.). In that same section, the lead
opinion further concluded that SUWA could not overcome this presumption because it provided “no reason
to believe that the [government] ha[d] any interest in
relinquishing . . . any part of the federal title to the
road” at issue. Id. at 1207.
In contrast, four of the seven members concluded
that “SUWA [had] satisfied its minimal burden of
showing that the [government might not] adequately
represent SUWA’s interests in th[e] litigation.” Id. at
1227 (Ebel, J., concurring in part, dissenting in part).
This conclusion was based, in pertinent part, on the
notion that the quiet title action at issue would not “require[ ] a simple binary determination” of whether
“San Juan County ha[d] a right-of-way easement or
not,” but instead would involve a “more nuanced” determination that included “not only whether there
[wa]s any right-of-way, but also the nature and scope
of that right-of-way if it d[id] exist.” Id. at 1228.
Although San Juan County does not mandate a
particular outcome in this case, we are persuaded,
based upon comparing the arguments made by SUWA
in this case regarding the adequacy of representation
question with the rationales adopted by the two competing contingents in San Juan County, that SUWA
has failed to establish that its interest in the instant
case will not be adequately represented by the federal
government. As noted, the four members of the en banc
court who concluded that intervention should have
been granted in San Juan County emphasized that the
quiet title action at issue there would involve a

App. 88
“nuanced” determination encompassing “not only
whether there [wa]s any right-of-way, but also the nature and scope of that right-of-way if it d[id] exist.” Id.
at 1228 (Ebel, J., concurring in part, dissenting in
part). In seeking to intervene in this case, however,
SUWA made no such assertion regarding the quiet title claims alleged by Kane County. Instead, SUWA argued below only that (1) the history of adversarial
relations between itself and the Bureau of Land Management (BLM) demonstrated that the United States
might not adequately represent SUWA’s interests, and
(2) “BLM ha[d] not shown a willingness to defend federal control of its routes in the face of [prior] County
claims and actions.” App. at 244. Moreover, SUWA conceded at the hearing on its motion before the district
court that “[t]he only issue to be resolved . . . [wa]s
whether the United States or Kane County h[eld] title”
to the roads at issue. Id. at 775. To be sure, SUWA’s
counsel attempted, upon questioning at oral argument
before this court, to argue that SUWA and the United
States might disagree as to the potential scope of Kane
County’s purported rights-of-way. But any argument in
that regard has, for purposes of this appeal, been
waived. See Singleton v. Wulff, 428 U.S. 106, 120, 96
S.Ct. 2868, 49 L.Ed.2d 826 (1976) (“[A] federal appellate court does not consider an issue not passed upon
below.”); Turner v. Pub. Serv. Co. of Colo., 563 F.3d 1136,
1143 (10th Cir.2009) (“Absent extraordinary circumstances, we will not consider arguments raised for the
first time on appeal.”). Further, SUWA has not challenged on appeal the district court’s findings that
SUWA failed to (a) “proffer any evidence to which it

App. 89
would have access about the historical use of the roads
that [wa]s not available to the United States,” or (b)
“present evidence that it ha[d] any special expertise,
experience or knowledge with respect to the historic
use of the roads that would not be available to the
United States.” App. at 775.
As for the two arguments actually asserted below
by SUWA, we are not persuaded they are sufficient, either alone or together, to establish that the federal government will fail to adequately represent SUWA’s
interests. Indeed, we agree with the federal government that those arguments “rel[y] on inapplicable
cases involving intervention in challenges to administrative action as well as irrelevant speculation about
and critiques of potential litigation strategies by the”
federal government, and “SUWA’s disagreement with
the United States’ land management decisions in the
past does not demonstrate that the United States is an
inadequate representative in this title dispute, which
is ultimately grounded in non-federal activities that
predate those management decisions.” Gov’t Br. at 20.
Moreover, we note that, as was the case in San Juan
County, the federal government “ha[s] displayed no reluctance [in these proceedings], at least so far as the
record before us shows, to claim full title to” the roads
at issue, and “SUWA has provided no basis to predict
that the [federal government] will fail to present . . . an
argument on the merits that SUWA would make.” 503
F.3d at 1206 (opinion of Hartz, J.).

App. 90
b) Conclusion
For the reasons outlined above, we conclude the
district court did not err in rejecting SUWA’s motion to
intervene as a matter of right under Rule 24(a). Assuming, for purposes of argument, that SUWA has a
valid interest in these quiet title proceedings, it has
failed to establish, at this stage of the litigation, that
the federal government will not adequately protect its
interest.
II. Permissive Intervention
Federal Rule of Civil Procedure 24(b) governs permissive intervention. Subsection (b)(1)(B) thereof requires the potential intervenor to show that it “has a
claim or defense that shares with the main action a
common question of law or fact.” Further, Rule 24(b)(3)
states that “[i]n exercising its discretion, the court
must consider whether the intervention will unduly
delay or prejudice the adjudication of the original parties’ rights.” The grant of permissive intervention lies
within the discretion of the district court. City of Stilwell v. Ozarks Rural Elec. Coop., 79 F.3d 1038, 1043
(10th Cir.1996).
In its motion to intervene, SUWA argued, in addressing the possibility of permissive intervention,
that it “intend[ed] to assert claims and defenses that
[we]re in common with those that [we]re at the center
of th[e] action: whether the facts and circumstances of
th[e] case support[ed] a finding that Kane County
h[eld] a valid [right-of-way] under R.S. 2477 to” the

App. 91
routes at issue. App. at 247. SUWA also noted that “in
its proposed answer [it] raise[d] a number of defenses
concerning whether Kane County c[ould] maintain its
action under the Quiet Title Act.” Id. Lastly, SUWA asserted that its “presence in the litigation w[ould] not
cause ‘undue delay or prejudice’ “ because “[t]he parties
[we]re at the very beginning of the case, and SUWA
agree [d] to abide by the schedules set by the [district
court].” Id. at 248.
The district court, in denying SUWA’s request for
permissive intervention, first noted that unlike the situation in Kootenai Tribe of Idaho v. Veneman, 313 F.3d
1094 (9th Cir.2002), the sole case relied upon by SUWA
in support of permissive intervention, the United
States in this case had “assert[ed] its intent to fully defend” against Kane County’s quiet title claims. Id. at
777. Continuing, the district court concluded that resolution of Kane County’s quiet title claims would not
involve any claims or defenses in common “with
SUWA’s asserted conservation interest.” Id. Rather,
the district court concluded, the claims were “limited
to the question of title, an issue . . . adequately represented by the United States.” Id. Further, the district
court noted “[t]here [wa]s nothing in the briefing nor
the arguments to suggest that SUWA would offer any
additional defenses or claims relevant to the issue to
be decided that would not already be fully and completely advocated by the United States.” Id. Finally, the
district court concluded that because “SUWA d[id] not
share any claim or defense in th[e] action that [wa]s
different from any other member of the public who

App. 92
cares deeply about the outcome of th[e] litigation,” “allow[ing] SUWA to intervene . . . under Rule 24(b)
would be an invitation to any member of the public
who holds strong views about the outcome to seek to
intervene.” Id.
On appeal, SUWA challenges the district court’s
ruling, but only very briefly. SUWA asserts that “the
district court abused its discretion because it erroneously held that SUWA [wa]s obligated to offer ‘additional defenses or claims relevant to the issue to be
decided’ from those offered by the United States.” Aplt.
Br. at 50. SUWA argues “[t]his is clear legal error that
warrants reversal” because “Rule 24(b) contains no requirement that intervenors offer a separate or additional claim or defense.” Id. (emphasis in original).
Although SUWA is correct in noting that Rule
24(b) does not require a permissive intervenor to assert a separate or additional claim or defense, nothing
in the Rule necessarily prohibits a district court, in exercising its discretion under Rule 24, from taking that
fact into consideration (and SUWA has cited no cases
holding that that is an improper consideration under
Rule 24(b)). Moreover, even assuming, for purposes of
argument, that the district court erred in relying on
this factor, SUWA has not challenged the three other
rationales offered by the district court for denying
SUWA’s request for permissive intervention. Thus,
SUWA has not established that the district court’s
decision was “an arbitrary, capricious, whimsical, or

App. 93
manifestly unreasonable judgment.” See Nalder v. West
Park Hosp., 254 F.3d 1168, 1174 (10th Cir.2001) (defining abuse of discretion review) (internal quotations
omitted).
AFFIRMED.

App. 94
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------------------------------------------------------

KANE COUNTY, UTAH,
a Utah political subdivision,
Plaintiff - Appellant/
Cross-Appellee,
and
THE STATE OF UTAH,
Intervenor Plaintiff Appellant/Cross-Appellee,
v.
UNITED STATES
OF AMERICA,
Defendant - Appellee/
Cross-Appellant.
----------------------------SOUTHERN UTAH WILDERNESS ALLIANCE, et al.,
Movants.
----------------------------SIERRA CLUB, et al.,
Amici Curiae.

Nos. 13-4108,
13-4109 & 13-4110
(D.C. No. 2:08-CV00315-CW)

App. 95
-----------------------------------------------------------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------------------------------------------------------

(Filed Sep. 2, 2014)
At the specific direction of the panel assigned to
hear these cases at oral argument on September 29,
2014, these matters are before the court on the motion
of the Southern Utah Wilderness Alliance and The Wilderness Society to intervene in the appeals. We also
have responses in opposition to the motion, as well as
a reply.
On November 13, 2013, the motion to intervene
was granted provisionally, but the order also noted
that provisional ruling would be “subject to reconsideration by the panel of judges that [would] be assigned
later.” The panel has now considered the motion, the
responses and reply, as well as all the briefing in these
matters. Upon consideration, and at the direction of
that panel, the motion to intervene is denied.
Entered for the Court
/s/ Elisabeth A. Shumaker
ELISABETH A. SHUMAKER, Clerk

App. 96
950 F.3d 1323
United States Court of Appeals, Tenth Circuit.
KANE COUNTY, UTAH, Plaintiff-Appellee,
and
The State of Utah, Intervenor Plaintiff-Appellee,
v.
UNITED STATES of America, Defendant-Appellee.
Southern Utah Wilderness Alliance; The
Wilderness Society, Movants-Appellants.
No. 18-4122
FILED February 27, 2020
(D.C. No. 2:08-CV-00315-CW), (D. Utah)
Before TYMKOVICH, Chief Judge, BRISCOE,
LUCERO, HARTZ, HOLMES, BACHARACH, PHILLIPS, MORITZ, EID, and CARSON, Circuit Judges.*
ORDER
This matter is before the court on the Petition by
United States of America for Rehearing En Banc, and
Appellees Kane County, Utah and State of Utah’s Petition for Panel Rehearing and Request for En Banc Rehearing. Appellants have filed a consolidated response
to both petitions.

* The Honorable Scott M. Matheson and the Honorable Carolyn B. McHugh are recused and did not participate in the consideration of the rehearing petitions.

App. 97
The Utah Appellees’ request for panel rehearing is
denied by a majority of the original panel members.
Chief Judge Tymkovich would grant panel rehearing.
Both petitions and the response were transmitted
to all non-recused judges of the court who are in regular active service, and a poll was called. Because an
equal number of participating judges voted against rehearing as voted for it, the requests for en banc rehearing are denied. See Fed. R. App. P. 35(a) (“[a] majority
of the circuit judges who are in regular active service”
may order en banc rehearing).
Chief Judge Tymkovich, as well as Judges Hartz,
Holmes, Eid and Carson would grant en banc rehearing. Judge Phillips has filed a separate concurrence in
the denial of en banc rehearing, which Judge Briscoe
joins. Chief Judge Tymkovich has written separately
in dissent. Judges Hartz and Holmes join in Part II of
the dissent, and Judges Eid and Carson join the dissent in full.
PHILLIPS, Circuit Judge, joined by BRISCOE,
Circuit Judge, concurring in the denial of rehearing en
banc.
This case fails the standard governing en banc
consideration. See Fed. R. App. P. 35(a)(1) and 10th Cir.
R. 35.1(A). Our local rule directs us that “[a] request
for en banc consideration is disfavored[,]” and that
“[e]n banc review is an extraordinary procedure intended to focus the entire court on an issue of exceptional public importance or on a panel decision that

App. 98
conflicts with a decision of the United States Supreme
Court or of this court.” 10th Cir. R. 35.1(A).
In this case, the en banc dissent contends that the
panel decision conflicts with controlling precedent. Obviously, this requires a greater showing than that the
en banc dissenters would have ruled differently than
did the panel.1 With this in mind, I will discuss how the
panel-majority’s opinion fits well within controlling
precedents. In fact, as will be seen, much of the panelmajority’s opinion is compelled by binding precedent,
and the remainder properly rested with the panel to
decide.

I.

Panel Rulings Alleged to Contravene Supreme Court and Tenth Circuit Precedents
A. Standing

In Kane County v. United States (Kane III), 928
F.3d 877 (10th Cir. 2019), the case now before us, the
panel majority concluded that the Southern Utah Wilderness Association (SUWA) had established standing
to seek intervention as of right under Fed. R. Civ. P.
24(a)(2). The panel ruled that SUWA had met the
standing requirement in two separate ways—piggyback standing and Article III standing. Either suffices.

1

In this regard, we must be mindful to filter out any attempts to reargue our earlier precedents. Here, that is particularly important to remember when encountering the en banc
dissent’s discussion of San Juan County v. United States, 503
F.3d 1163 (10th Cir. 2007) (en banc).

App. 99
1.

Piggyback Standing

Applying the rule announced in Town of Chester v.
Laroe Estates, Inc., ___ U.S. ___, 137 S. Ct. 1645, 198
L.Ed.2d 64 (2017), the panel majority first ruled that
SUWA had established piggyback standing2 to proceed
with its motion to intervene. Kane III, 928 F.3d at 886–
87. The panel acknowledged that the availability of
piggyback standing had narrowed from when we applied that doctrine in San Juan County v. United
States, 503 F.3d 1163, 1172 (10th Cir. 2007) (en banc).
Specifically, the panel majority addressed that point as
follows:
But ten years later [after San Juan County],
the Supreme Court modified our “piggyback
standing” rule, holding that an intervenor as
of right must “meet the requirements of Article III if the intervenor wishes to pursue relief
not requested” by an existing party. Town of
Chester, . . . 137 S. Ct at 1648[.] In that case,
the record was ambiguous whether the intervening plaintiff was seeking a different form
of relief from the existing plaintiff: a separate
award of money damages against the same
defendant in its own name. Id. at 1651–52.
Because “[a]t least one [litigant] must have
standing to seek each form of relief
2

This term refers to the situation in which a proposed intervenor relies on the Article III standing of a party to a lawsuit. See
United States v. Colo. & E. R.R. Co., 882 F.3d 1264, 1268 (10th
Cir. 2018) (“NDSC could not ‘piggyback’ on the standing of one of
the described parties to the Consent Decree because there was no
current case or controversy pending before the court on the part
of those parties[.]”).

App. 100
requested,” the Court remanded for the circuit
court to determine whether the intervenor, in
fact, sought “additional relief beyond” what
the plaintiff requested. Id. at 1651.
Citing Town of Chester, Kane County argues
that SUWA cannot simply invoke the United
States’ Article III standing, contending that
SUWA and the United States are pursuing
different relief. We disagree with that view. After all, the United States has informed us that
it seeks “retention of the maximum amount of
property” and will argue for “the smallest
widths [it] can based on the historical evidence,” the same relief that SUWA seeks. See
United States’ Resp. Br. at 22, 32; Oral Arg.,
at 18:30.
Kane III, 928 F.3d at 886–87 (second, third, and
fourth alterations in original) (footnotes omitted). As
seen, the Kane III panel majority applied piggyback
standing in accordance with Town of Chester. Piggyback standing was available because the United States
and SUWA seek the same relief.
The en banc dissent disputes the panel-majority’s
ruling that SUWA satisfied piggyback standing under
Town of Chester. First, the en banc dissent asserts that
the panel majority “held that SUWA was excused from
establishing standing, or, in the alternative, that it had
adequately done so.” En banc dissent at 1331 (citing
Kane III, 928 F.3d at 886–89). Certainly, the panel majority ruled that SUWA could piggyback the United
States’ Article III standing. But the panel majority correctly applied the Town of Chester standard in doing

App. 101
so. Second, the en banc dissent correctly asserts that
under Town of Chester, “where an intervenor pursues
separate relief from a party, it must establish standing
under Article III.” Id. at 1331 (citing Town of Chester,
137 S. Ct at 1648) (emphasis removed). But the en banc
dissent wrongly ascribes to the panel majority a position it never took, saying that “[a]ccording to the majority, SUWA’s interests are thus similar enough to the
United States’ to avoid having to establish its own
standing under Town of Chester.” Id. at 1332. In fact,
the block quote above shows that the panel majority
disagreed with Kane County’s argument that “SUWA
and the United States are pursuing different relief.”
Kane III, 928 F.3d at 887. After reciting how the United
States characterized its own interest, the panel majority concluded that the United States was seeking “the
same relief that SUWA seeks.” Id. (emphasis added).
This being so, the panel majority allowed SUWA to piggyback on the United States’ Article III standing. Id.
The en banc dissent errs in saying that the panel majority read Town of Chester as approving piggyback
standing when an intervenor’s and party’s interests
are “similar enough.” See en banc dissent at 1332.
Third, the en banc dissent claims that the majority
read Town of Chester as embracing a “more expansive
point"3 than permitted by Hollingsworth v. Perry, 570
3

Immediately before this statement, the en banc dissent
cites Town of Chester as “holding merely that ‘at the least, an intervenor of right must demonstrate Article III standing when it
seeks additional relief beyond which the plaintiff requests.’ ” En
banc dissent at 1332. The Court’s point preceding these quoted
words was that just as with plaintiffs and multiple plaintiffs, “[a]t

App. 102
U.S. 693, 704, 133 S.Ct. 2652, 186 L.Ed.2d 768 (2013),
and two of this court’s decisions4 “establishing that any
person seeking relief from a federal court must demonstrate standing to do so.” En banc dissent at 1332 (next
quoting Hollingsworth in a parenthetical for the
least one plaintiff must have standing to seek each form of relief
requested in the complaint.” Town of Chester, 137 S. Ct. at 1651.
The Court next simply states that “[t]he same principle applies to
intervenors of right.” Id. That gives the en banc dissent no basis
to say that the Kane III panel majority reads Town of Chester expansively.
4
In particular, the en banc dissent cites two Tenth Circuit
cases. First, it cites Colorado & Eastern Railroad, 882 F.3d at
1269. En banc dissent at 1332. Unlike Hollingsworth at least, Colorado & Eastern was decided after Town of Chester, in fact by
eight months. But Colorado & Eastern had no reason to address
Town of Chester, because Colorado & Eastern raised no piggyback-standing issue. Colo. & E. R.R., 882 F.3d at 1269. Instead,
the intervenor-appellant there asserted standing solely under Article III. Id. Facing that issue, we ruled that the intervenor-appellant had failed to establish Article III standing, reasoning that
“the record conclusively establishes that the relief requested by
NDSC will not redress any assumed injury to it caused by C &
E[.]” Id. Second, it cites Safe Streets Alliance v. Hickenlooper, 859
F.3d 865, 912 (10th Cir. 2017). En banc dissent at 1332. That case
came two days after Town of Chester and did not cite it. Instead,
Safe Streets Alliance cited Hollingsworth as abrogating San Juan
County’s expansive piggyback-standing rule. Safe Streets All., 859
F.3d at 912; Cf. San Juan Cty., 503 F.3d at 1172 (holding “that
parties seeking to intervene under Rule 24(a) or (b) need not establish Article III standing ‘so long as another party with constitutional standing on the same side as the intervenor remains in
the case’ ”). The panel majority acknowledged the demise of San
Juan County’s broad piggyback standing rule and turned to Town
of Chester. See Kane III, 928 F.3d at 887. But just as Safe Streets
Alliance needed to acknowledge and apply Hollingsworth, so too
did the panel majority here need to acknowledge and apply Town
of Chester.

App. 103
proposition that “[o]ne essential aspect of [the powers
conferred by Art. III] is that any person invoking the
power of a federal court must demonstrate standing to
do so”). But Hollingsworth must be read in accordance
with Town of Chester, which was decided four years
later. Fourth, the en banc dissent mixes into its Article
III standing analysis its Rule 24(a)(2) adequacy-of-representation analysis. Id. at 1332–33. The two analyses
do not mix this way. For piggyback standing, Town of
Chester tells us exactly what to consider here—that is,
whether the intervenor is seeking the same relief as a
party is. 137 S. Ct. at 1651. By contrast, the Rule
24(a)(2) adequacy-of-representation analysis looks not
only to the degree of similarity of the sought interests
but to the degree the party will assert them. See San
Juan Cty., 503 F.3d at 1206. The panel majority applied
the piggyback-standing requirements in accordance
with Town of Chester, and in doing so it contravened
neither Supreme Court nor Tenth Circuit law.
2.

Article III Standing

Separate and apart from piggyback standing, the
majority panel ruled that SUWA had shown its own
standing under Article III. In this regard, the majority
recognized that SUWA needed to show “(1) an injury in
fact that is (a) concrete and particularized and (b) actual or imminent, not conjectural or hypothetical; (2)
the injury is fairly traceable to the challenged conduct;
and (3) the injury can likely be redressed by a favorable decision.” Kane III, 928 F.3d at 888 (citing Friends
of the Earth, Inc. v. Laidlaw Envtl. Servs. (TOC), Inc.,

App. 104
528 U.S. 167, 180–81, 120 S.Ct. 693, 145 L.Ed.2d 610
(2000)).
In concluding that SUWA had met these requirements, the panel majority turned to the primary case
the en banc dissent claims the majority’s decision contravenes—San Juan County. The panel majority noted
that “[h]ere, as in San Juan County, it is ‘indisputable
that SUWA’s environmental concern is a legally protectable interest.’ ” Kane III, 928 F.3d at 888 (citing San
Juan Cty., 503 F.3d at 1199).5 We noted that “[i]n San
Juan County, we recognized that ‘if the County prevails, it will then pursue opening the road to vehicular
traffic that SUWA has been trying to prevent.’ ” Id. (citing San Juan Cty., 503 F.3d at 1200). We explained that
in San Juan County we had seen “nothing speculative
about the impact on SUWA’s interests if the County
prevails in its quiet-title action” and further noted that
San Juan County had stated that the opening of roads
was the whole point of the lawsuit. Kane III, 928 F.3d
at 888 (quoting San Juan Cty., 503 F.3d at 1201–02)
(internal quotation marks omitted). And we
“acknowledge[d] that San Juan County involved the
5

In a footnote, the panel majority stated that “[t]hough this
portion of the opinion concerned the potential impairment of
SUWA’s interests under Rule 24(a)(2), other courts have recognized that ‘any person who satisfies Rule 24(a) will also meet Article III’s standing requirement.’ Roeder v. Islamic Republic of
Iran, 333 F.3d 228, 233 (D.C. Cir. 2003); see also Sokaogon Chippewa Cmty. v. Babbitt, 214 F.3d 941, 946 (7th Cir. 2000) (‘Any
interest of such magnitude as to support Rule 24(a) intervention
of right is sufficient to satisfy the Article III standing requirement
as well.’) (internal quotations and alterations omitted).” Kane III,
928 F.3d at 888 n.14.

App. 105
possibility of reopening closed roads, as opposed to widening already-opened roads, as here—but we view both
as sufficient degrees of impact.” Kane III, 928 F.3d at
888–89. On this point, we observed that “[a] 24-foot
road allows more traffic than a 10- or 12-foot road (in
the case of North Swag and Swallow Park roads), and
a 66-foot road allows more traffic than a 24- to 28-foot
road (in the case of Skutumpah Road).” Id. at 889.
In my view, the en banc dissent does not fully
credit that the seven-judge majority in San Juan
County ruled that SUWA had established a protectible
interest under Fed. R. Civ. P. 24(a)(2). The Kane III
panel majority merely followed in its wake.
B. Right to Intervene Under Fed. R. Civ. P. 24(a)(2)
1.

Title or Property-Rights Dispute

The en banc dissent describes the underlying suit
as one solely involving property law, an ownership dispute between the governmental parties. En banc dissent at 1330–31, 1333, 1334. From this, it concludes
that “[a]s a quiet title action, this dispute focuses solely
on the various ownership rights the parties have in the
disputed rights-of-way. SUWA has no role in such litigation because it lacks any independent ownership
claim in the disputed property.” Id. at 1334. From this,
I gather that the dissent concludes that environmental
groups (or any others lacking an ownership claim) can
never intervene in R.S. 2477 suits. See id. (saying that
“[t]he nature of the suit [described as a property dispute] further compels this result”—that SUWA cannot

App. 106
show standing under Article III). This ignores the San
Juan County’s seven-judge majority’s two-sentence
statement that “[w]e recognize that SUWA does not
claim that it has title to Salt Creek Road, even though
this is a quiet-title suit. But Rule 24(a)(2) does not
speak of ‘an interest in the property’; rather, it requires
only that the applicant for intervention ‘claim[ ] an interest relating to the property or transaction which is
the subject of the action.’ ” 503 F.3d at 1200 (quoting
Fed. R. Civ. P. 24(a)(2)) (alterations in original).
In addition, as mentioned, the seven-judge majority in San Juan County agreed that SUWA had satisfied the first portion of Fed. R. Civ. P. 24(a)(2)—namely,
that in that R.S. 2477 suit involving the Salt Creek
Road, SUWA had “claim[ed] ‘an interest relating to the
property or transaction which is the subject of the action and . . . is so situated that the disposition of the
action may as a practical matter impair or impede [the
movant’s] ability to protect [its] interest.’ ” See 503 F.3d
at 1201. I agree that six judges would have held differently. Id. at 1210 (Kelly, J., concurring6) (concluding
that “SUWA ha[d] not ‘asserted an interest’ ” relating
to the property at issue in the lawsuit); id. (McConnell,
J., concurring7) (agreeing with the three-judge lead
opinion’s “conclusion that the district court correctly
denied SUWA’s motion to intervene, but . . . not
agree[ing] with its reasoning”). In view of the San
6

Joined by Chief Judge Tacha and Judges Porfilio, O’Brien,
McConnell, and Holmes.
7
Joined by Chief Judge Tacha and Judges Porfilio, Kelly,
O’Brien, and Holmes.

App. 107
Juan County split, I do not see how the Kane III panelmajority’s opinion would contravene San Juan County.
Next, the en banc dissent says that the panel majority contravened Kane County v. United States (Kane
I), 597 F.3d 1129 (10th Cir. 2010). En banc dissent at
1331, 1335 n.5, 1335. But as the panel majority detailed in Kane III, the Kane I panel declined to consider
whether the United States had adequately represented SUWA on the scope of the rights-of-way (as opposed to the binary determination of title). It declined
for one reason—that SUWA had failed to preserve the
argument. 928 F.3d at 883 (citing Kane I, 597 F.3d at
1135). And on that point, the Kane I panel—as had the
seven-judge majority in San Juan County—acknowledged that SUWA may later try again to intervene on
scope grounds despite having waived the ability to do
so in that particular appeal. See Kane I, 597 F.3d at
1135 (ruling that SUWA “has failed to establish, at this
stage of the litigation, that the federal government will
not adequately protect its interest”); San Juan Cty.,
503 F.3d at 1207 (noting that this denial of SUWA’s
motion to intervene “does not forever foreclose SUWA
from intervention” and that “[i]f developments after
the original application for intervention undermine
the presumption that the Federal Defendants will adequately represent SUWA’s interest, the matter may
be revisited”).

App. 108
2.

Adequacy of Representation

On this question, the seven-judge majority in San
Juan County split into two opinions. In Part IV(B) of
Judge Hartz’s three-judge lead opinion, he concluded
that the United States would adequately represent
SUWA’s interests. See id. at 1203–07. In Judge Ebel’s
four-judge opinion, he concurred in all but this part of
Judge Hartz’s opinion. See id. at 1226–27. As mentioned, the remaining six judges concurred in judgment but did not comment on the adequacy-ofrepresentation issue. Thus, because blocs of threejudges and six-judges concluded that SUWA had not
shown that it was entitled to intervene (for different
reasons), the Judge Hartz three-judge opinion became
the lead opinion on the adequacy-of-representation issue.
The Kane III panel majority did not contravene
Kane I, which had denied SUWA intervention on adequacy-of-representation grounds. As mentioned, in
Kane I, the court raised the possibility that the adequacy-of-representation result might hinge on SUWA’s
having relied on scope as well as title, but the panel
ruled that SUWA had waived that issue on appeal. So
Kane I obviously did not take a view that San Juan
County somehow rendered the scope issue as off limits.
Nor could Kane I have taken such a view. The
three-judge lead opinion in San Juan County runs
forty pages, about four of which pertain to the adequacy-of-representation issue. In the lead opinion,
Judge Hartz looked to the amended complaint’s claims,

App. 109
including one for declaratory judgment, and he noted
that the district court when denying intervention to
SUWA had “stated that ‘the pleadings define the case
in a very narrow fashion[:] the existence or non-existence of a right-of-way and its length and its
breadth[.]’ ”8 San Juan Cty., 503 F.3d at 1206. He then
held that “on the record before us, SUWA will be adequately represented by the Federal Defendants with
respect to the quiet-title claim.” Id. Presumably speaking to that record, which becomes important, he “recognize[d] that SUWA and the NPS have had their
differences over the years regarding Salt Creek
Road[,]” but emphasized that “when SUWA filed its application to intervene, the Federal Defendants had
only a single litigation objective—namely, defending exclusive title to the road—and SUWA could have had no
other objective regarding the quiet-title claim.” Id. (emphasis added). He continued along this line when noting that “[t]he Federal Defendants have displayed no
reluctance, at least so far as the record before us shows,
to claim full title to Salt Creek Road.” Id. (emphasis
added). He noted that “SUWA has given us no reason
8

The en banc dissent contends that the panel majority
“reads the lead opinion from San Juan County as consistent with
its conclusion that the scope of the rights-of-way was not at issue
in that case.” En banc dissent at 1335 n.5. In opposition, the en
banc dissent quotes a portion of San Juan referencing a portion
of the amended complaint in San Juan alleging that “the rightof-way must be sufficient in scope for vehicle travel[.]” Id. (quoting
San Juan Cty., 503 F.3d at 1171). I agree the amended complaint
alleged this and that scope ultimately needed determined, but the
amended complaint’s allegation does not refute the above-quoted
portions of San Juan’s lead opinion.

App. 110
to believe that the Federal Defendants have any interest in relinquishing to the County any part of the federal title to the road.” Id. at 1207 (emphasis added).
And perhaps most importantly, he also noted that
though “the Federal Defendants may not wish to exercise their authority as holder of title in the same way
that SUWA would wish,9 the district court did not treat
such exercise of authority as being at issue in this litigation when SUWA’s application for intervention was
rejected.” Id. 1206–07 (footnote and emphasis added).
Judge Hartz’s three-judge lead opinion addressed
Judge Ebel’s four-judge opinion (which had dissented
on the adequacy-of-representation issue) in just one respect. Judge Hartz stated that “we are not inclined to
infer from the Federal Defendants’ opposition to intervention that they will fail to vigorously resist the claim
to an RS 2477 right-of-way.” Id. at 1206. He did not
comment on Judge Ebel’s extensive discussion about
how the United States “may not adequately represent”
SUWA’s interest on the scope of the right-of-way. See
Id. at 1227 (Ebel, J., concurring in part and dissenting
in part).
With this background in San Juan County, it is no
wonder the Kane I panel, after reviewing the San Juan
County case, commented that “San Juan County does
not mandate a particular outcome in this case[.]” 597
F.3d at 1134. The panel noted that SUWA had not argued in the district court for a more nuanced
9

This sounds to me as a recognition that the United States
and SUWA might well disagree on the scope of any rights-of-way.

App. 111
“determination encompassing ‘not only whether there
[wa]s any right-of-way, but also the nature and scope
of that right-of-way if it d[id] exist.’ ” Id. (quoting San
Juan Cty., 503 F.3d at 1228 (Ebel, J., concurring in part
and dissenting in part)). Though SUWA, upon questioning at oral argument in Kane I, argued that it “and
the United States might disagree as to the potential
scope of Kane County’s purported rights-of-way[,]” the
court held that argument waived “for purposes of this
appeal[.]” Id. at 1335.
For the reasons given, I respectfully submit that
the Kane III majority panel did not contravene any Supreme Court or Tenth Circuit caselaw, which defeats
the present request for en banc consideration.

TYMKOVICH, Chief Judge, joined as to Part II by
HARTZ and HOLMES, Circuit Judges, and joined in
full by EID and CARSON, Circuit Judges, dissenting
from the denial of rehearing en banc.
This case should be reheard en banc. The panel
majority’s decision rests on an overbroad understanding of Article III standing and extends a right of intervention to third parties who have no legal interest at
issue in the dispute. In doing so, the majority contravenes Supreme Court precedent and that of this court,
and thus should be corrected. Moreover, the decision
opens the intervention doors to parties that wish to
disrupt property disputes between the United States
and state and local governments—a common

App. 112
occurrence in the Western United States—and make
them proxy battlegrounds for the airing of specialty interests.
This case is one of many regarding the scope of unadjudicated road claims across the American West.1
The Southern Utah Wilderness Alliance (SUWA)
wishes to intervene and shape the litigation; Utah and
the United States assert SUWA has no interest that
will not be adequately represented by the United
States. Although this court has become accustomed to
interest group participation in cases regarding the administration of public lands, this is no such case. Instead, all that is presently before the court is a
property dispute that will be resolved by looking to the
pre-1976 uses of the lands at issue. After adjudication
of the property claims, when and if the court is presented with the question of how best to administer
such property, the logic and rationale of the majority’s
opinion may prove sufficient to permit SUWA’s participation. But to extend such reasoning here contravenes
established principles of standing and intervention.
See San Juan Cty. v. United States, 503 F.3d 1163, 1211
(10th Cir. 2007) (McConnell, J., concurring) (“As citizens and users, SUWA’s members have enforceable
statutory rights regarding how the land is administered if the United States owns the land, but they have

1

As the United States asserts, it currently faces “more than
12,000” R.S. 2477 claims in Utah alone. Pet. by United States for
Reh’g En Banc 8.

App. 113
no legal rights regarding whether the United States
owns the land.”).
The instant suit is a R.S. 2477 roadway case2—an
ownership dispute between the United States on the
one hand and the State of Utah and Kane County on
the other. The underlying controversy has a long history, but all that presently remains is a determination
of the width and length of three rights-of-way that
Kane County and the State of Utah possess. See Kane
Cty. v. United States, 772 F.3d 1205, 1223 (10th Cir.
2014) (Kane II).
The question is one of property law. And the answer turns exclusively “on the historic use of these
roads by the public for the period required under Utah
law prior to 1976.” Kane Cty. v. United States, No. 2:08CV-315, 2009 WL 959804, at *3 (D. Utah Apr. 6, 2009);
see also Kane II, 772 F.3d at 1223.
In 2008, Kane County first sued the United States
under R.S. 2477 and the Quiet Title Act to quiet title
in fifteen roads that cross federal land, including the
three rights-of-way presently in dispute. Shortly
2

In 1866, Congress granted public access to unreserved public lands by providing that the “right of way for the construction
of highways over public lands, not reserved for public uses, is
hereby granted.” Mining Act of July 26, 1866, ch. 262, § 8, 14 Stat.
251, 253 (1866) (codified at 43 U.S.C. § 932). This statute is commonly referred to as “R.S. 2477.” In 1976, Congress repealed this
broad grant, but grandfathered in all “valid” rights of way in existence at the time. See Pub. L. No. 94-579, §§ 701(a), 706(a), 90
Stat. at 2786, 2793. Accordingly, those claiming a right of way
may sue for quiet title to the property under the Quiet Title Act,
as the Utah entities did here.

App. 114
thereafter, SUWA moved to intervene. See Kane Cty.,
2009 WL 959804, at *1. The district court denied
SUWA’s motion and this court affirmed. See Kane Cty.
v. United States, 597 F.3d 1129 (10th Cir. 2010) (Kane
I). After a bench trial, the district court held Kane
County and the State of Utah proved their claims with
respect to twelve of the roads in question, and it resolved the scope of those rights-of-way. See Kane Cty. v.
United States, No. 2:08-cv-00315, 2013 WL 1180764, at
*62–65 (D. Utah Mar. 20, 2013). The United States appealed the district court’s decision, and this court reversed in part, leaving the scope of the three rights-ofway currently at issue as the sole remaining matter
pending in this case. Kane II, 772 F.3d at 1223.
Although SUWA does not claim title to the roads,
it now again seeks to intervene, alleging interests and
inadequate representation relating to the hypothetical
future use of the three remaining rights-of-way. The
district court denied SUWA’s motion. The panel majority’s opinion reversed. Kane Cty. v. United States, 928
F.3d 877, 887 (10th Cir. 2019) (Kane III). The majority
first held that SUWA was excused from establishing
standing, or, in the alternative, that it had adequately
done so. Id. at 886–89. The majority further held that
SUWA was entitled to intervene as of right under Federal Rule of Civil Procedure 24(a) because SUWA had
shown an interest at risk of being impaired and that
the United States may not adequately represent
SUWA’s interests. Id. at 891–96.

App. 115
The majority’s opinion conflicts with our precedent
and that of the Supreme Court on two issues—standing and intervention.
I.

Article III Standing

“Standing is a threshold issue in every case before
a federal court.” Phila. Indem. Ins. Co. v. Lexington Ins.
Co., 845 F.3d 1330, 1334 (10th Cir. 2017). The majority’s opinion enlarges Article III standing in contravention to Supreme Court authority in two ways. As a
threshold matter, it holds SUWA, as an intervening
party, need not establish standing. Kane III, 928 F.3d
at 886–87. Then, in the alternative, it finds SUWA
nonetheless cleared this necessary hurdle. Id. at 888–
89.
A. Applicability of the Standing Requirement
To intervene, SUWA must establish standing. The
majority relies on Town of Chester v. Laroe Estates,
Inc., for the proposition that SUWA need not establish
standing because it seeks the same relief as the United
States. See Kane III, 928 F.3d at 887–88 (citing ___ U.S.
___, 137 S. Ct. 1645, 198 L.Ed.2d 64 (2017)). Town of
Chester’s holding was a narrow one—where an intervenor pursues separate relief from a party, it must establish standing under Article III. See 137 S. Ct. at
1648. But the case assuredly does not hold that where
the intervenor seeks relief similar to the existing parties, it may avoid establishing standing. See id. at 1651
(holding merely that “at the least, an intervenor of
right must demonstrate Article III standing when it

App. 116
seeks additional relief beyond that which the plaintiff
requests” (emphasis added)). The majority’s reading of
Town of Chester to embrace this more expansive point
conflicts with case law from the Supreme Court and
this court establishing that any person seeking relief
from a federal court must demonstrate standing to do
so. Hollingsworth v. Perry, 570 U.S. 693, 704, 133 S.Ct.
2652, 186 L.Ed.2d 768 (2013) (“One essential aspect of
[the powers conferred by Art. III] is that any person
invoking the power of a federal court must demonstrate standing to do so.”); United States v. Colo. & E.
R.R. Co., 882 F.3d 1264, 1269 (10th Cir. 2018) (“Any
party, whether original or intervening, that seeks relief
from a federal court must have standing to pursue its
claims.”); Safe Streets All. v. Hickenlooper, 859 F.3d
865, 912 (10th Cir. 2017) (“Rule 24(a)’s provisions cannot remove the Article III hurdle that anyone faces
when voluntarily seeking to enter a federal court.”).
The majority’s attempt to distinguish these cases
falls short. With respect to Colo. & E. R.R., the majority
quotes a description of the district court’s opinion,
claiming that the case is inapposite because there was
no “live controversy” between the parties in Colo. & E.
R.R. and here there is. See Kane III, at 887 n.11. This
point is not what the decision on appeal was based on.
See Colo. & E. R.R. Co., 882 F.3d at 1269 (“Because the
record conclusively establishes that the relief requested by [the party seeking to establish standing]
will not redress any assumed injury to it . . . we resolve
[the] appeal on that basis.”). With respect to Safe
Streets and Hollingsworth, the majority argues the

App. 117
statements in Safe Streets were merely dicta and that,
regardless, Hollingsworth “applied the piggyback
standing rule.” Kane III, at 887 n.11. But nothing in
Hollingsworth suggests its statements with respect to
standing constitute an affirmation of the piggyback
standing rule. Indeed, this court has already recognized Hollingsworth as abrogating that rule. See Safe
Streets, 859 F.3d at 913.
Accordingly, under Town of Chester, Hollingsworth, and our precedent, SUWA invariably must
establish standing in order to join this suit. In excusing
SUWA from this requirement, the majority performed
an end-run around the constitutional limit that Article
III places on the power of the federal courts. Hollingsworth, 570 U.S. at 704, 133 S.Ct. 2652.
Even accepting the majority’s premise that standing is excused where an intervenor seeks similar relief
to that of an existing party, the majority’s conclusion
still suffers a fatal inconsistency. To justify its contention that SUWA seeks the same relief as the United
States, the majority concedes that the United States
“seeks retention of the maximum amount of property
and will argue for the smallest widths it can based on
the historical evidence”—in other words, “the same relief that SUWA seeks.” Kane III, 928 F.3d at 887. According to the majority, SUWA’s interests are thus
similar enough to the United States’ to avoid having to
establish its own standing under Town of Chester. But
this contradicts the majority’s later conclusion that the
United States will not adequately represent SUWA’s
interests. See Kane III, 928 F.3d at 898 (Tymkovich, J.,

App. 118
dissenting) (“If SUWA seeks identical relief to the
United States—that is, federal retention of the maximum amount of property—then the United States provides adequate representation of SUWA’s interests. . . .
If SUWA seeks relief different from the United
States—because the government does not, in fact, wish
to retain maximum property—then SUWA must
demonstrate that it possess standing according to
Town of Chester.”).
Were this a case regarding the administration of
the land at issue, as opposed to merely its ownership,
the majority could potentially thread the needle in the
manner it seeks to here. See Kane III, 928 F.3d at 898
n.1 (Tymkovich, J., dissenting). For example, in administrative cases like the ones cited by the majority, the
United States usually must consider a wide array of
interests and engage in extensive balancing. See, e.g.,
Doe v. Zucker, No. 117-CV-1005, 2019 WL 111020
(N.D.N.Y. Jan. 4, 2019). This could lead to the type of
symmetry in relief sought, yet asymmetry in ultimate
resolution objectives, that could justify intervention
along the lines the majority proposes. But in the context of a property dispute like the present one, such
fine distinctions break down.
B.

SUWA’s Standing

Perhaps realizing SUWA must demonstrate
standing to intervene, the majority holds that SUWA
established standing. See Kane III, 928 F.3d at 888.
That conclusion is in error. SUWA’s alleged injury is

App. 119
too attenuated and speculative to provide standing under Article III to participate in this suit regarding the
relative property rights of the United States and the
Utah entities.
To establish Article III standing, an intervenor
must first show “ ‘an injury in fact’—an invasion of a
legally protected interest which is (a) concrete and particularized, and (b) ‘actual or imminent, not conjectural
or hypothetical.’ ” Lujan v. Defs. of Wildlife, 504 U.S.
555, 560, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992) (citations omitted). Second, there must be a “causal connection between the injury and the conduct complained
of—the injury has to be ‘fairly traceable to the challenged action of the defendant.’ ” Id. Third, “it must be
‘likely,’ as opposed to merely ‘speculative,’ that the injury will be ‘redressed by a favorable decision.’ ” Id. at
561, 112 S.Ct. 2130.
SUWA’s argument, adopted by the majority,
stands on a series of conjectures regarding hypothetical future land use. To conclude SUWA has standing,
one must assume: “(1) the United States will not zealously defend its title to the relevant roads, (2) the title
adjudication will thus lead to an appreciably different
outcome regarding pre-1976 uses, (3) this appreciable
difference will lead Kane County to open the relevant
roads to greater vehicular traffic than it would have
otherwise, and finally, (4) the greater vehicular traffic
will, at the margin, cause aesthetic environmental injury to SUWA members who may return to the particular areas in the future.” Kane III, 928 F.3d at 899–900

App. 120
(Tymkovich, J., dissenting). This attenuation proves
too much.
As the Court found in Clapper v. Amnesty International USA, such a theory of “future injury is too speculative to satisfy the well-established requirement
that threatened injury must be ‘certainly impending.'“
568 U.S. 398, 401, 133 S.Ct. 1138, 185 L.Ed.2d 264
(2013). In Clapper, the Court declined to find that human rights, labor, legal, and media organizations had
standing to challenge the Foreign Intelligence Surveillance Act as unconstitutional because the Court found
allegations that the organizations would be subject to
the surveillance authorized by the Act too speculative.
The Court noted its reluctance “to endorse standing
theories that require guesswork as to how independent
decisionmakers will exercise their judgment.” Id. at
413, 133 S.Ct. 1138. The Court’s hesitancy is wellfounded and should be applied here to preclude SUWA
from joining this case where its only supposed injury
relies on a highly attenuated chain of possibilities. See
Summers v. Earth Island Inst., 555 U.S. 488, 496, 129
S.Ct. 1142, 173 L.Ed.2d 1 (2009) (rejecting environmental organizations’ standing claims where they
were similarly premised on a series of speculation).
The nature of the suit further compels this result.
As a quiet title action, this dispute focuses solely on the
various ownership rights the parties have in the disputed rights-of-way. SUWA has no role as a party in
such litigation because it lacks any independent

App. 121
ownership claim in the disputed property.3 This case
does not create any new property rights, does not concern the administration of the land at issue, and will
not directly result in any physical changes to the subject property. Instead, it concerns solely what property
rights exist in light of pre-1976 uses of the roads at issue. See Kane II, 772 F.3d at 1223–24.
Moreover, any future improvements that Kane
County might make that could significantly affect the
surrounding lands will require additional consultation
with the federal government. See S. Utah Wilderness
All. v. BLM, 425 F.3d 735, 748–49 (10th Cir. 2005)
(“[E]ven legitimate changes in the character of the
roadway require consultation when those changes go
beyond routine maintenance.”). In short, although
SUWA may have valid considerations it wishes to present to whichever party owns the property at issue regarding how to manage that land, this is not the forum
to present these arguments. The present suit merely
concerns which regulator will be the recipient of such
advocacy in the future as the owner of, and therefore
the party responsible for administering, the land.

3

In reaching this conclusion, I need not, and do not, take the
position that an environmental group “can never intervene” in an
R.S. 2477 suit. En banc concurrence at 1327. Nor does anything
preclude SUWA’s continued participation as an amicus curiae in
the present suit.

App. 122
II.

Intervention and the Adequacy of the
United States’ Representation

Finally, the majority erred in holding that the
United States may not adequately represent SUWA’s
interests.4 Kane III, 928 F.3d at 892. “Even if an applicant satisfies the other requirements of [Federal Rule
of Civil Procedure] 24(a)(2), it is not entitled to intervene if its interest is adequately represented by existing parties.” San Juan Cty., 503 F.3d at 1203. Where
the applicant for intervention has the same objective
as one of the parties, a “general presumption” exists
that representation is adequate. Id. at 1204. Notably,
the majority concluded the United States may not adequately represent SUWA’s interests despite two prior
statements from this court to the contrary. See San
4

I would review the district court’s decision on adequacy of
representation for abuse of discretion. See Kane III, 928 F.3d at
901–02 (Tymkovich, J., dissenting) (citing Abeyta v. City of Albuquerque, 664 F.3d 792, 796 (10th Cir. 2011) and Plain v. Murphy
Family Farms, 296 F.3d 975, 978 (10th Cir. 2002)). The majority
relies on City of Colorado Springs v. Climax Molybdenum Co. in
concluding this court should review the district court’s decision de
novo. Kane III, 928 F.3d at 889. In Climax, this court considered
a consecutive motion to intervene and noted, in dicta, that if it
reached the merits of the appeal, the appropriate standard of review for the district court’s denial of the motion to intervene as of
right would be de novo. See 587 F.3d 1071, 1078 (10th Cir. 2009).
The court never reached the merits. Further, in that case, neither
party disputed de novo review and neither party argued that the
motion was properly considered a motion for reconsideration. For
these reasons, I find Climax distinct from the present case and
unpersuasive. Nonetheless, even reviewing the district court’s decision de novo, I believe SUWA failed to show that the United
States may not adequately represent its interests. Accordingly, I
apply, arguendo, that standard of review here.

App. 123
Juan Cty., 503 F.3d at 1204–06; Kane I, 597 F.3d at
1134.
In San Juan County, the judgment of this court
denying SUWA the right to intervene rested, at least
in part, on the fact that the United States adequately
represented SUWA’s interest. See 503 F.3d at 1204. In
Kane I, this court similarly held that SUWA had no
right to intervene in this case because the United
States adequately represented SUWA’s interest. See
597 F.3d at 1135. Rather than adhering to these precedents, the majority departs, expressly adopting the
reasoning of an opinion that gained only four judges’
allegiance in San Juan County.5 See Kane III, 928 F.3d
at 893–94 (citing San Juan Cty., 503 F.3d at 1226
(Ebel, J., concurring in part and dissenting in part)).
The majority rests this departure on two prongs.
First, it attempts to bifurcate the issues of title and
scope and to cast our prior precedent as relating only
to title. See Kane III, 928 F.3d at 894 (“[T]hough SUWA
and the United States had identical interests in the title determination, they do not on scope.”). This provides no basis for departing from San Juan County and
Kane I. Contrary to the majority’s characterization of
5

The majority opinion states that it reads the lead opinion
from San Juan County as consistent with its conclusion that the
scope of the rights-of-way was not at issue in that case. See Kane
III, 928 F.3d at 893–94. This reading ignores clear statements to
the contrary. See San Juan Cty., 503 F.3d at 1171, 1206 (noting
the County claimed “the right-of-way must be sufficient in scope
for vehicle travel” and stating that “the pleadings define the
case in a very narrow fashion [to include] the existence or nonexistence of a right-of-way and its length and its breadth”).

App. 124
San Juan County as relating exclusively to title, the
district court characterized the issues presented in
that case as relating to “the existence or non-existence
of a right-of-way and its length and its breadth.” San
Juan Cty., 503 F.3d at 1206 (emphasis added) (quoting
the district court). Moreover, the majority’s suggestion
that the question of scope was not before the court until now is belied by the fact that, following our denial
of SUWA’s attempt to intervene in Kane I, the district
court held a trial and determined the scope of the
rights-of-way in question. As the majority concedes,
“scope is inherent in the quiet title process,” Kane III,
928 F.3d at 894, and as such has always been at issue
in this case.
Second, the majority seeks to justify its departure
from our precedent by referring to the change in presidential administration. Although such a change may,
in certain circumstances, warrant intervention, this is
not one of them. Simply put, a change in presidential
administration does not affect the adjudication of
property ownership. See Kane III, 928 F.3d at 905
(Tymkovich, J., dissenting). Unlike APA challenges
concerning land use like those raised by the majority,
a dispute over land ownership does not call upon the
government to consider the wide array of interests the
majority suggests are brought to bear and which subsequent administrations might weigh differently from
prior ones. To the contrary, scope hinges exclusively on
the pre-1976 usage of the roads in question. See Kane
II, 772 F.3d at 1223 (“The scope of an R.S. 2477 right of
way is limited by the established usage of the route as

App. 125
of the date of the repeal of the statute.”). Any adjustments to scope from the pre-1976 uses must rest on
what is “reasonable and necessary . . . in the light of
traditional uses to which the right-of-way was put.” Id.
at 1223. Present day interests that the United States
might consider regarding the land’s use are not relevant to the scope of the rights-of-way in question. Accordingly, even following the change in administration,
there is no daylight between the United States’ interests and those of SUWA, and the majority’s conclusion
that the United States will not adequately represent
those interests is unfounded.6
The APA cases the majority cites fail to disturb
this conclusion. In WildEarth Guardians v. United
States Forest Service, this court approved intervention
where the underlying issue concerned regulatory compliance with the National Environmental Policy Act in
approving methane venting from a coal mine. See 573
F.3d 992, 994 (10th Cir. 2009). In Utah Ass’n of Counties v. Clinton, this court approved intervention where
the underlying issue concerned compliance with NEPA
and the Federal Land Policy and Management Act in
6

SUWA speculates the United States will fail to adequately
represent its interests, relying on statements from the parties
that allegedly “support the notion that the new administration
may be more inclined to settle” than the previous one. SUWA’s
Resp. to Pets. for Panel and En Banc Reh’g 5. This fails to account
for the reality that the United States has not settled this case after more than two and a half years of a new administration, or
explain why the parties did not further stay proceedings after the
previous stay expired or why extensive discovery and depositions
have continued in other pending road disputes between the parties. See Kane III, 928 F.3d at 905–06 (Tymkovich, J., dissenting).

App. 126
the creation of the Grand Staircase Escalante National
Monument. See 255 F.3d 1246, 1248–49, 1256 (10th
Cir. 2001). In both, the government conduct at issue
necessarily implicated a “broad spectrum” of interests.
WildEarth Guardians, 573 F.3d at 996; Utah Ass’n of
Counties, 255 F.3d at 1255–56. Neither case warrants
the same result here for the simple reason that the
government’s defense of its title in a quiet title action
does not implicate a similarly broad array of interests.
Unlike government decisions concerning how to use
and regulate land, defending title only implicates the
government’s interest in maintaining land ownership.
Indeed, as the majority concedes, the United States
seeks “ ‘retention of the maximum amount of property’
and will argue for ‘the smallest widths it can based on
the historical evidence.’ ” Kane III, 928 F.3d at 888.
This aligns the government’s interests with SUWA’s
and suffices to show adequate representation.
As additional justifications, the majority points to
the fact that “the United States opposes SUWA’s intervention motion,” arguing this demonstrates “[the
United States] may not adequately represent SUWA’s
interests.” Kane III, 928 F.3d at 895. This was squarely
addressed and dismissed in San Juan County. 503 F.3d
at 1206 (“[W]e are not inclined to infer from the Federal Defendants’ opposition to intervention that they
will fail to vigorously resist the claim to an R.S. 2477
right-of-way.”). The majority also cites commentary
from the United States implying that it might contemplate settlement in an effort to resolve the “12,000 of
these claims . . . as quickly and efficiently as it can.”

App. 127
Kane III, 928 F.3d at 895. But as the majority concedes,
the prospect of settlement cannot support a finding
that the United States may not adequately represent
the interests involved. Id. at 892 (“Nor is representation inadequate merely because the representative enters into a settlement, because any case, even the most
vigorously defended, may culminate in a settlement.”).
Accordingly, SUWA has failed to show any change
in circumstances warranting a reversal of our previous
conclusion that the United States adequately represents SUWA’s interests in this quiet title action.
Because the panel majority’s opinion is inconsistent with Supreme Court precedent regarding Article III standing and our precedent on the right to
intervention, I would have granted the petitions for rehearing en banc.

